<html>
<title> - MEDIA OUTREACH TO VETERANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                       MEDIA OUTREACH TO VETERANS

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2008

                               __________

                           Serial No. 110-98

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
44-000 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY MCNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio               STEVE SCALISE, Louisiana
TIMOTHY J. WALZ, Minnesota
DONALD J. CAZAYOUX, JR., Louisiana

                   Malcom A. Shorter, Staff Director

                                 ______

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  HARRY E. MITCHELL, Arizona, Chairman

ZACHARY T. SPACE, Ohio               GINNY BROWN-WAITE, Florida, 
TIMOTHY J. WALZ, Minnesota           Ranking
CIRO D. RODRIGUEZ, Texas             CLIFF STEARNS, Florida
                                     BRIAN P. BILBRAY, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             July 15, 2008

                                                                   Page
Media Outreach to Veterans.......................................     1

                           OPENING STATEMENTS

Chairman Harry E. Mitchell.......................................     1
    Prepared statement of Chairman Mitchell......................    29
Hon. Ginny Brown-Waite, Ranking Republican Member................     3
    Prepared statement of Congresswoman Brown-Waite..............    30

                               WITNESSES

U.S. Department of Veterans Affairs, Hon. Lisette M. Mondello, 
  Assistant Secretary for Public and Intergovernmental Affairs...    18
    Prepared statement of Ms. Mondello...........................    49

                                 ______

Goodstein, Ronald C., Ph.D., Associate Professor of Marketing, 
  The Robert Emmett McDonough School of Business, Georgetown 
  University, Washington, DC.....................................     8
    Prepared statement of Dr. Goodstein..........................    34
Iraq and Afghanistan Veterans of America, Vanessa Williamson, 
  Policy Director................................................     6
    Prepared statement of Ms. Williamson.........................    33
O'Herrin, Elizabeth, Washington, DC..............................     4
    Prepared statement of Ms. O'Herrin...........................    30
Sutton, Sharyn M., Ph.D., Washington, DC.........................    10
    Prepared statement of Dr. Sutton.............................    44

                   MATERIAL SUBMITTED FOR THE RECORD

Background Material:
    Hon. James B. Peake, M.D., Secretary, to Under Secretaries, 
      Assistant Secretaries, and Other Key Officials, U.S. 
      Department of Veterans Affairs, Memorandum dated June 16, 
      2008, Regarding Rescission of VA Advertising Policy and 
      Delegation of Authority for the Purchase of Media 
      Advertising................................................    50
Post Hearing Followup, Questions and Responses for the Record:
    Hon. Harry E. Mitchell, Chairman, Subcommittee on Oversight 
      and Investigations, Committee on Veterans' Affairs, to Hon. 
      Lisette M. Mondello, Assistant Secretary, Public and 
      Intergovernmental Affairs, U.S. Department of Veterans 
      Affairs, letter dated July 18, 2008, and response letter 
      dated September 16, 2008...................................    53
    Hon. Ginny Brown-Waite, Ranking Member, Subcommittee on 
      Oversight and Investigations, Committee on Veterans' 
      Affairs, to Hon. James B. Peake, Secretary, letter dated 
      July 22, 2008, and responses...............................    56
    Hon. Ginny Brown-Waite, Ranking Member, Subcommittee on 
      Oversight and Investigations, Committee on Veterans' 
      Affairs, to Ms. Elizabeth O'Herrin, letter dated July 22, 
      2008, and responses........................................    59
    Hon. Ginny Brown-Waite, Ranking Member, Subcommittee on 
      Oversight and Investigations, Committee on Veterans' 
      Affairs, to Ms. Vanessa Williamson, Policy Director, Iraq 
      and Afghanistan Veterans of America, letter dated July 22, 
      2008, and Ms. Williamson's responses.......................    60
    Hon. Ginny Brown-Waite, Ranking Member, Subcommittee on 
      Oversight and Investigations, Committee on Veterans' 
      Affairs, to Ronald C. Goodstein, Ph.D., Associate Professor 
      of Marketing, Robert Emmett McDonald School of Business, 
      Georgetown University, letter dated July 22, 2008, and Dr. 
      Goodstein's responses......................................    62
    Hon. Ginny Brown-Waite, Ranking Member, Subcommittee on 
      Oversight and Investigations, Committee on Veterans' 
      Affairs, to Sharyn M. Sutton, Ph.D., Washington, DC., 
      letter dated July 22, 2008, and Dr. Sutton's responses.....    63


                       MEDIA OUTREACH TO VETERANS

                              ----------                              


                         TUESDAY, JULY 15, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:02 p.m., in 
Room 334, Cannon House Office Building, Hon. Harry E. Mitchell 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Mitchell, Space, Walz, and Brown-
Waite.

              OPENING STATEMENT CHAIRMAN MITCHELL

    Mr. Mitchell. Good afternoon. And welcome to the 
Subcommittee on Oversight and Investigations hearing on media 
outreach to veterans. This meeting will come to order.
    Today we will be hearing from veterans, marketing experts, 
and the U.S. Department of Veterans Affairs (VA) about the 
prospects and challenges in using television media to reach 
veterans not currently enrolled in VA services.
    In November, CBS News got some shocking and critical 
information, information to light that veterans aged 20 to 24 
were killing themselves when they returned home at rates 
between two and a half to four times higher than their 
nonveteran peers.
    Possibly more troubling, though, was that the Department of 
Veterans Affairs was not keeping track of veterans' suicides 
nationwide.
    In December, we had a hearing to find out why. I do not 
think anyone at that hearing will forget the moving testimony 
of Mike and Kim Bowman, whose 23-year-old son, Tim, survived a 
year of duty in Iraq only to come home and take his own life.
    Mr. Bowman warned us that the VA needs to do a better job 
of reaching out to veterans at risk for suicide. Do not just 
make it so veterans have to go to the VA, he told us, make the 
VA go to the veteran.
    The VA reports that out of a veteran population of about 25 
million, only 7.8 million are enrolled to receive healthcare 
services and only five and a half million were actually treated 
last year. I want to know about the other 17 million veterans. 
What is being done to bring them to the VA?
    Following the hearing, I asked the VA for information about 
what the folks in the field, those helping veterans one on one 
every day, have been asking for to reach veterans at risk for 
suicide and their families.
    After 4 months of stonewalling and a suggestion that I go 
file a ``Freedom of Information Act'' request, the VA finally 
began producing documents and cooperating with my inquiry in 
May. Documents began arriving and VA officials began meeting 
with my office.
    As we learn more about the VA's efforts to reach veterans 
outside the VA system, we learn more about the potential 
advantages of television advertising as well as the frustration 
with the VA's ban.
    Until recently, the VA had a self-imposed ban against 
television advertising. In other words, if anyone at the VA 
suggested using public service announcements (PSAs) to raise 
the public awareness of VA's suicide hotline or other mental 
health services, they were told that it was against VA policy 
to do so.
    In an era when slogans like ``Be All You Can Be'' and ``The 
Few, The Proud, The Marines'' have become household phrases and 
commercials touting them are only a few clicks away on YouTube, 
the VA's ban on television advertising seem to many of us, 
outdated and out of touch.
    Of course, those are recruiting ads, but I think they 
illustrate an important point. We have the means to spread 
important messages. We just need to have the will.
    On June 18, 2008, Secretary Peake called to inform me that 
he had formally lifted the ban on television advertising. I am 
grateful for his action and I commend him for it. It is a 
decision that I hope will end up saving lives.
    Lifting the ban is only the beginning. The VA will now have 
to partner with advertising professionals to design and 
implement an effective public awareness campaign and find an 
effective way to monitor its impact.
    This Congress has placed a high priority on funding VA 
healthcare. As a result, the VA has been able to hire thousands 
of new mental health professionals. Veterans now need to know 
where to go to get that help.
    To that end, I am excited to hear from the VA about its 
plans for a pilot public awareness campaign. First, however, we 
will hear from Elizabeth O'Herrin, an Iraqi War veteran, about 
how veterans see the VA today, as well as Vanessa Williamson, 
about how private organizations are using media to help 
veterans.
    Before I recognize others for opening remarks, I want to 
thank Chairman Filner and Ranking Member Buyer for their 
bipartisan leadership on this issue as well as Ranking Member 
Brown-Waite who has been an invaluable partner.
    I would also like to thank Mr. Boozman for his leadership 
in recognizing potential legislation and Mr. Hall whose 
Subcommittee has been actively searching for ways to publicize 
benefits available to veterans.
    I would like our witnesses to stay within the 5 minutes of 
opening statements. Your full statement will be submitted for 
the record, but this panel is large and we need to make sure we 
have a great dialog.
    I would also like to ask Members to stay within the 5 
minutes so that we can get to everyone. I will not interrupt an 
answer, but please do not ask any questions after the time is 
complete. And, again, this is a large panel. We will have a 
second round of questions, if possible.
    At this time, I would like the witnesses from both panels 
if they would please stand to be sworn in.
    [Witnesses sworn.]
    [The prepared statement of Chairman Mitchell appears on p. 
29.]
    Mr. Mitchell. At this time, I would like to recognize Ms. 
Brown-Waite.

            OPENING STATEMENT HON. GINNY BROWN-WAITE

    Ms. Brown-Waite. Thank you very much, Chairman Mitchell.
    Informing veterans about the benefits that are available to 
them should be a very high priority for the Department of 
Veterans Affairs. Printing brochures and handbooks in this day 
of the Internet and instant messaging is still an option. But 
the use of the 21st century technology does need to be 
explored.
    On May 20, 2008, the House passed H.R. 3681, the ``Veterans 
Benefit Awareness Act of 2007.'' This provides authorization 
for the Secretary of Veterans Affairs to promote benefits 
available to veterans by advertising through the national 
media.
    This advertising would promote awareness of veterans' 
programs provided by the Secretary including, but not limited 
to, programs for homeless veterans, promotion of veteran-owned 
small businesses, opportunities for employment in the 
Department of Veterans Affairs, educational opportunities and 
training, compensation, pension, vocational rehabilitation, and 
healthcare benefits, along with mental healthcare including the 
prevention of veteran suicide.
    This bill, which was authored by Congressman Boozman, the 
Ranking Member of the Subcommittee on Economic Opportunity, and 
Congresswoman Stephanie Herseth Sandlin, the Chair of that 
Subcommittee, was introduced due to raised concerns by 
officials at the Department of Veterans Affairs that they did 
not have, or they thought they did not have, the authority to 
advertise their services to the public through a national media 
campaign. That bill is still awaiting Senate action.
    On June 4th, the Chairman and I sent a letter requesting 
the Chairman and Ranking Member of the full Committee to use 
the resources of the Committee to explore the potential 
efficacy of a broadcast public awareness campaign as a means of 
conducting outreach to veterans at risk for suicide.
    On June 16th, Secretary Peake sent a memo to the Under 
Secretaries, Assistant Secretaries, and other key officials at 
the Department clarifying the ability of the VA to advertise in 
the national media.
    That memorandum provided within 2 months after this 
delegation of authority, the Assistant Secretary for Public and 
Intergovernmental Affairs review the purchases of media 
advertisement under this memorandum, at which time the 
Assistant Secretary would provide a recommendation to the 
Secretary to either continue the existing program or pursue a 
new policy.
    Mr. Chairman, I ask unanimous consent that a copy of the 
Secretary's memo be included in the official record.
    Mr. Mitchell. Thank you. Without objection, so ordered.
    [The Secretary's Memorandum, dated June 16, 2008, appears 
on p. 50.]
    Ms. Brown-Waite. Thank you. Mr. Chairman, I am looking 
forward to hearing from the witnesses today on the 
implementation of the Secretary's memorandum. It has been 1 
month since the memorandum has been issued and I am interested 
to learn what steps have been taken to further inform our 
veterans about these services that are available through the 
VA.
    I yield back the balance of my time.
    [The prepared statement of Congresswoman Brown-Waite 
appears on p. 30.]
    Mr. Mitchell. Thank you.
    On our first panel, we have Elizabeth O'Herrin, Operation 
Iraqi Freedom (OIF) veteran and former Wisconsin Air National 
Guard member; Vanessa Williamson, Policy Director for Iraq and 
Afghanistan Veterans of America (IAVA); Ronald C. Goodstein, 
Ph.D., Associate Professor of Marketing from Georgetown 
University; and Dr. Sharyn Sutton from Washington, DC, a 
communications and social marketing consultant.
    We will begin with you, Ms. O'Herrin. And thank you. If you 
would, keep it within 5 minutes.

 STATEMENTS OF ELIZABETH O'HERRIN, WASHINGTON, DC (OIF VETERAN 
   AND FORMER WISCONSIN AIR NATIONAL GUARD MEMBER); VANESSA 
 WILLIAMSON, POLICY DIRECTOR, IRAQ AND AFGHANISTAN VETERANS OF 
  AMERICA; RONALD C. GOODSTEIN, PH.D., ASSOCIATE PROFESSOR OF 
  MARKETING, THE ROBERT EMMETT MCDONOUGH SCHOOL OF BUSINESS, 
 GEORGETOWN UNIVERSITY, WASHINGTON, DC; AND SHARYN M. SUTTON, 
   PH.D., WASHINGTON, DC (COMMUNICATION AND SOCIAL MARKETING 
                          CONSULTANT)

                STATEMENT OF ELIZABETH O'HERRIN

    Ms. O'Herrin. Good afternoon, Chairman Mitchell and other 
distinguished representatives of the Subcommittee. I thank you 
for the opportunity to be here today and share my perspective 
as a young Iraq War veteran who believes there is much to be 
done to reach out to our returning troops.
    I joined the Air National Guard on September 13th, 2001, 
and I have deployed three times in support of Operation Iraqi 
Freedom. I can personally attest to my experiences with the 
Department of Veterans Affairs as both a member of the National 
Guard and a veteran, which is a little bit different than being 
a veteran of active duty.
    I would like to pull one particular thought from my written 
testimony and use this opportunity to expound on it a little 
bit.
    I went on my third deployment to Iraq this spring and I was 
stationed there just for a couple months. And so the experience 
I am about to speak of right now is especially salient to me.
    The theory is when you are on active duty, the U.S. 
Department of Defense (DoD) is supposed to take care of you and 
after you have served your country, they hand you off to the 
Department of Veterans Affairs.
    But I believe a rather significant disconnect can be 
illustrated by the awareness campaigns for post traumatic 
stress disorder (PTSD) that I witnessed while I was on active 
duty and the complete lack thereof when I separated from active 
duty after deploying.
    It is interesting to me that while I was deployed, public 
service announcements were literally everywhere you turned 
because they are constantly on the Armed Forces Network which 
is broadcast everywhere in the desert. They are in the gym. 
They are at the chow hall. You see the Armed Forces Network and 
the PSAs everywhere.
    But when I came home, these public service announcements 
completely disappeared. There was no awareness campaign despite 
the fact that you generally get PTSD after the fact. It's 
called post traumatic stress disorder for a reason.
    I was actually in Iraq when the Super Bowl was aired and I 
distinctly remember sitting down at chow and having a long 
discussion with a bunch of Army guys about public service 
announcements on American Forces Network (AFN). They were kind 
of grumbling because there were not going to be any good 
commercials on during the Super Bowl. It was going to be about 
4 hours of public service announcements.
    And I have to say that they have a notorious reputation for 
being a little bit on the cheesy side, but I think it is common 
practice for military members to joke about public service 
announcements. But I want to emphasize one thing in particular. 
We talked about these PSAs and we talked about them on a very 
regular basis.
    And while people might joke about the need to be careful 
during lightning strikes or the importance of shredding 
important documents or even post traumatic stress disorder 
symptoms, these PSAs are doing their job which is to create 
awareness because they stick in people's heads and people talk 
about them.
    For example, while I was deployed, if I had been 
unfortunate enough to have been sexually assaulted, I would 
have known exactly where to go to talk to somebody. I knew that 
I would not have to report it officially on the record. I knew 
what protocol to follow to ensure that everything remained 
confidential. And this was literally hammered into my head 
through PSAs. And should something have happened, I would not 
have had to go searching for the answers after the fact. It was 
a very proactive outreach method used by the Department of 
Defense.
    And I was fortunate enough to never witness anything of 
this, but if I had, the tools to cope with the incident were 
routinely given to me. It did not leave any room for confusion 
or hesitancy, which when confusion and hesitancy happens, it 
can often lead to individuals not actually seeking out the help 
that they really need.
    And I feel at the VA, they have a plethora of services and 
benefits and information, but I feel that the attitude is a 
little bit like we are here for you, but you have to come to 
us. And many veterans wait until there is a legitimate problem 
before they start to dig for answers. And I believe taking a 
less passive stance, instead using more active outreach methods 
could do a great deal to encourage veterans to seek out 
assistance before it is too late.
    I commend the Department of Veterans Affairs for their 
efforts in reaching out to veterans and also veterans service 
organizations for trying to fill in the gaps. It is not an easy 
job and there is a lot of work to do, but I believe that a few 
key changes within the Department of Veterans Affairs could go 
a long way into giving young veterans the tools that they need 
to reintegrate into civilian life upon return home.
    I talked a great deal about new methods such as e-mail in 
my written testimony, the VA implementing the use of e-mail, 
and I would be happy to answer any questions about my written 
testimony.
    Thank you.
    [The prepared statement of Ms. O'Herrin appears on p. 30.]
    Mr. Mitchell. Thank you.
    Ms. Williamson.

                STATEMENT OF VANESSA WILLIAMSON

    Ms. Williamson. Mr. Chairman, Ranking Member, and Members 
of the Subcommittee, thank you for the opportunity to testify 
today on the need for VA media outreach.
    I am the Policy Director of Iraq and Afghanistan Veterans 
of America, the country's first and largest nonprofit and 
nonpartisan Iraq and Afghanistan veterans' group.
    As a civilian who has worked with this population for 
almost 4 years now, I have seen firsthand the tremendous gap 
between the VA and the veterans they are seeking to help.
    There are millions of veterans who qualify for VA benefits 
and services, but who do not use them simply because they do 
not know the programs exist, they do not know they qualify, or 
they do not know how to apply.
    These veterans could be getting a college education, buying 
their own home, qualifying for healthcare when they are sick, 
but they are not because they do not think they can afford it. 
And the VA has not told them otherwise.
    The VA's healthcare system is actually a very good system, 
but accessing it can be very difficult. Right now at least 1.8 
million veterans lack health insurance and half of those 
veterans actually qualify for VA care. That is almost a million 
veterans without regular access to healthcare who the VA could 
be serving.
    Like other uninsured Americans, these veterans are avoiding 
getting their health problems treated while relying on 
expensive emergency room care. Among Iraq and Afghanistan 
veterans in particular, less than half have signed up for VA 
care. These veterans have only 5 years to get into the door of 
the VA or they risk getting labeled Priority 8 and losing their 
access altogether.
    The VA needs to take steps now to reach these veterans 
before it is too late. In the meantime, veterans are missing 
out on some of the best healthcare you can get in this country. 
Veterans of Foreign Wars (VFW), American Veterans (AMVETS), 
Disabled American Veterans (DAV), and Paralyzed Veterans of 
America (PVA) agree that VA healthcare is ``equivalent to or 
better than care in any private or public healthcare system.'' 
But until the VA advertises their healthcare services, hundreds 
of thousands of veterans will lack access.
    Veterans also qualify for tens of thousands of dollars in 
education benefits. Under the GI Bill, which became law only 
weeks ago, Iraq and Afghanistan veterans receive free tuition 
up to the cost of the most expensive in-State public 
university. They also get a living stipend and a book stipend, 
and there is even a new program to encourage expensive private 
schools to offer veteran scholarships.
    But we know from history that many veterans do not take 
advantage of their GI Bill. In fact, under the old Montgomery 
GI Bill, only 8 percent of veterans used their whole benefit 
and 30 percent of veterans did not use their GI Bill at all.
    A VA advertising campaign now would ensure that Iraq and 
Afghanistan veterans get the chance to build a brighter future 
for themselves and their families. And I know how hard this 
Committee worked to make this GI Bill a reality, so we really 
do need to take the next step.
    The last area I am going to talk about in terms of the need 
for VA advertising is home loans. Military towns are ground 
zero for the subprime mortgage crisis. Foreclosure rates in 
towns around military bases are increasing at four times the 
national average.
    While troops and veterans were being bombarded over the 
last few years with advertising for subprime mortgages, they 
heard no advertising at all regarding safe and reliable VA home 
loans. As a result, the VA Home Loan Program has been under-
utilized.
    The number of new VA loans has declined every year between 
2004 and 2007. And in 2006, at the peak of U.S. subprime 
lending, the number of VA loans had fallen to barely a third of 
the level of 2 years earlier.
    This is especially unfortunate because veterans using VA 
home loans get a much safer mortgage and the support of VA 
financial counseling if they need it. And VA backed mortgages 
are not going into foreclosure like subprime loans are.
    In fact, although 90 percent of current VA backed home 
loans were given with no down payment at all, their foreclosure 
rate is near the level of prime borrowers which is borrowers 
with the highest possible credit rating.
    But because the VA does not advertise, many troops and 
veterans who could have gotten a VA home loan are now suffering 
with a subprime mortgage and are at risk of losing their homes 
altogether.
    So in terms of home loans, healthcare, and education, the 
VA offers excellent programs, but access is difficult. And 
without a strategy to advertise their services, veterans are 
going to continue to miss out.
    Knowing that nonprofit advocacy organizations can often 
respond faster than the government, IAVA has partnered with the 
Ad Council to conduct a multi-year public service announcement 
campaign to reduce the stigma of mental healthcare and to 
ensure that veterans seeking access to care get the benefits 
and support that they deserve.
    The Ad Council is responsible for many of the Nation's most 
iconic public service announcement campaigns including ``Only 
You Can Prevent Forest Fires,'' ``A Mind Is A Terrible Thing To 
Waste,'' and ``Friends Do Not Let Friends Drive Drunk.''
    The Ad Council has also shown great success. For example, 
as a result of Ad Council's Big Brother, Big Sister Campaign, 
applications for Big Brother's, Big Sister's mentors soared 
from 90,000 to 620,000 in only 9 months.
    Ready.gov, the Department of Homeland Secretary's outreach 
site, received more than 18 million unique visitors within the 
first 10 months of their campaign launch.
    We are hoping to see the same kind of success with our 
campaign. IAVA, Ad Council PSAs will appear on the television, 
in radio, in print, outdoors, and online, and will be rolling 
out in November of this year.
    Over the last 2 months, IAVA has met with VA on three 
occasions to discuss our new campaign and we are hopeful that 
the VA will be able to prepare for any increase in demand the 
campaign generates.
    But our PSA campaign will in no way eliminate the need for 
the VA to plan its own outreach and advertising campaign. Our 
veterans have earned these benefits defending their country and 
should not have to fight for them when they come home.
    Thank you for your time.
    [The prepared statement of Ms. Williamson appears on p. 
33.]
    Mr. Mitchell. Thank you.
    Dr. Goodstein.

            STATEMENT OF RONALD C. GOODSTEIN, PH.D.

    Mr. Goodstein. Thank you, Mr. Chairman, Members of the 
Subcommittee. I am Ron Goodstein from Georgetown University.
    And I just came today from teaching this morning for 
Kimberly-Clark and 50 executives from hospitals around the USA. 
We were talking their communications, their media strategy, 
their marketing strategy, and I spent 3 hours not talking about 
communications at all but talking about marketing research.
    I agree with everyone here that the idea is to advertise to 
the veterans, to let them know that you are out there, to build 
the awareness. You do have the means. You do have the 
motivation, but you need to know what to say and to whom.
    Of course, being an academic, I have to have slides, so let 
me go that way.
    [Slides shown.]
    I think the idea of the media outreach is strong. I think 
you are talking to people who not only need our help but 
deserve our help for what they have done for the country.
    I want to talk a little bit about the benefits of the media 
outreach, the idea of how to do the research that is needed, 
illustrate why SW square C is a formula for success, and 
provide a couple ideas for moving forward all within 5 minutes.
    The reality of communications is people do not watch, 
people do not look, people opt out. Unless the advertising that 
is done is relevant to the audience it is going to reach, this 
campaign might have no effect as well even though having an 
effect is not an option.
    What does a media outreach campaign do? Build awareness for 
the services is just a start. People need to comprehend what 
those services are and, more importantly, why they are relevant 
to the people you are trying to reach.
    What is the image of receiving that service from the VA? It 
does not come without prior attitudes and prior associations, 
some of which are very positive and some of which are very 
negative and need to change, as well as what is the attitude 
toward receiving those services from the VA, how easy are they 
to do business with, can I guarantee that my psychologist will 
be there 3 months from now, and will they give me the services 
I need before I am willing to put my life, my mental health 
into your hands.
    So the idea here is to begin not with an ad campaign but to 
begin with marketing research to understand what the Veterans 
Administration officers and what their campaign can do.
    I would not suggest the idea of benchmarking competitors. 
There are a lot of positive PSAs, public service announcements 
in the field, but there are a lot that are negative as well. 
And the difference is doing your homework.
    I have worked for 16 years with the Head Start organization 
and their last public service announcement campaign is not very 
useable by the people who need their help the most. The 
campaign is well-developed. It is well-created. It is 
compelling. However, it features kids holding up posters with 
paper plates, spaghetti hair, macaroni eyes, something we would 
all find very cute, very attractive.
    However, Head Start is for the poorest of the poor. They do 
not allow their kids to use food as artwork. These ads are 
rendered useless. They cannot post them in the places where 
Head Start prospects might be.
    So rather than benchmark PSAs on competitors, my suggestion 
is to benchmark what it is that veterans actually need, who are 
their motivators, what is their motivation, what are their 
issues, what are their problems, what do they read.
    The idea is not to just communicate to them but before a 
Request for Proposal goes out from an ad agency, it ought to go 
out to a research agency. You need to know as much about that 
veteran and move the VA closer to them. And we call that 
process customer relationship marketing.
    And for the things that the VA has that people do not know 
they need, educate them as to what that is. So the idea here is 
to begin the process not with advertising but to begin it with 
research.
    In order to assure success, the VA only has to answer two 
really important questions and it is a function of SW square C. 
In layman's terms, so what, who cares. The answer to who cares 
is not the VA and not us. It is not political officials. The 
answer to who cares is the veteran and the answer to so what is 
what do they care about.
    In order to be effective, a PSA campaign in any format has 
to answer who are we trying to target and what are their 
motivations and key drivers. So we have to view this from the 
customer's perspective.
    None of us are contemplating suicide. None of us have lost 
a limb in the war. None of us are having the same psychological 
issues they have, so let us talk to them first. Let us make 
sure that what we are offering them actually is a benefit they 
need.
    If the VA is offering the right services, let us inform 
them that that is the case. If the image is that the VA does 
not offer the services they need or the quality is not there, 
then you have to correct the problem and then work to change 
the image.
    But the whole point is we have to start with them, not the 
VA. We do not need to be different from what has gone on in the 
past. We need to be better. And the answer to better means we 
are different in a way that matters to the veteran. We need to 
make sure that what they get, why it is better, and the support 
for that is worth the cost to them. And this is all a function 
of research.
    How do you find out? Primary research, secondary research. 
Some has already been done. More has to be done in terms of 
focus groups and interviews. As you said, 17 million vets not 
going to the VA. Do they all have the same issues or do they 
differ? And if they do, let us develop a series of campaigns 
that will make it work best.
    As I said, there is a lot of research techniques that are 
out there that are applicable. I would never even attempt to go 
through this slide, but the issues that I have been discussing 
with your committee are those that can be addressed by 
research.
    My hope is that we do. The veterans deserve our help. They 
deserve happiness, but we have to start dealing with their 
issues and not ours. It is not yet time for the PSA. It is time 
for research.
    Thank you.
    [The prepared statement of Dr. Goodstein, and the attached 
slides, appear on p. 34.]
    Mr. Mitchell. Thank you.
    Dr. Sutton.

              STATEMENT OF SHARYN M. SUTTON, PH.D.

    Dr. Sutton. Thank you. I thank the Subcommittee today for 
inviting me to share my experience and thoughts on social 
marketing, particularly related to outreach to the veterans.
    While I have not worked directly with the VA, I have had 
the privilege to design and direct a number of national 
outreach campaigns in the government. I have also worked for 25 
years as a strategic planning consultant for a number of 
government agencies as well as national foundations, 
nonprofits, and the private sector.
    And I would like to agree with my colleague that talking 
about an outreach campaign sounds easier than it really is.
    While I do not represent any organization today, my views 
reflect 25 years of experience in trying to conduct effective 
outreach within a government setting.
    In preparation, I reviewed the testimony from May 22nd that 
was examining the effectiveness of the Veterans Benefits 
Administration outreach effort. And I hope that what I have to 
offer will continue that discussion.
    I would like to highlight three points from my written 
testimony that I submitted to the Committee.
    First, it is crucial that a strategic plan serve as a 
foundation for any outreach effort. The plan must be grounded 
in an understanding of the VA's mission and priorities. It 
should include research-based audience profiles and specify 
outreach strategies for integrated marketing communication.
    So while there is a role for broadcast and outdoor public 
service advertising, there is an important role for paid media 
to get the message out there. However, this must be within the 
context of integrated marketing communication in order to 
actually break through and communicate effectively.
    The strategic plan must also provide measurable objectives 
for success. It is all too easy to create attractive media 
campaigns that appear to fulfill outreach mandates without 
delivering desired outcomes.
    Second, the role of audience research to plan, develop, and 
evaluate integrated outreach efforts cannot be overemphasized. 
The VA should access or collect data on marketing questions 
such as audience perceptions, lifestyles, and media habits.
    The VA must also have the ability to conduct ongoing, 
timely tracking surveys that measure changes in targeted 
behaviors and not merely audience awareness. Such data are 
essential to evaluate the success of outreach campaigns based 
upon outcomes and not just campaign outputs like media time and 
material distribution.
    Third, an integrated outreach campaign should leverage the 
available State and local infrastructure such as the veterans 
agencies and the county veteran service officers. They are 
invaluable to delivering the VA's outreach.
    Development of campaign messages and materials are best 
created at the national level while funding should be given to 
State and local partners for campaign dissemination and 
implementation as well as for interpersonal communication.
    In the private sector, organizations like Intel, Bank of 
America, and AARP readily and routinely access technology that 
allows them to efficiently take national messages and customize 
them for the needs of local communities. There is no reason why 
the same technology cannot be put to use for social reasons.
    In addition, given the effectiveness of local and direct 
outreach, efforts should be made to use and share available 
data to reach and communicate with the veterans, one on one.
    In summary, strategic planning, audience research, and 
strengthened local implementation are essential elements for 
success. There is significant evidence that marketing-based 
approaches can help government agencies achieve their policy 
objectives for better programs and outreach.
    Given its demonstrated contribution, the important question 
becomes how to better integrate the marketing discipline within 
a government context. Public/private partnerships along with 
positive Congressional support, such as today's hearing, are 
very important steps.
    Thank you, and I am happy to answer any questions.
    [The prepared statement of Dr. Sutton appears on p. 44.]
    Mr. Mitchell. Thank you.
    I would like to start out asking some questions, first with 
Ms. Williamson. I am very impressed and thankful for the 
initiative you have taken with the IAVA to address the critical 
needs to destigmatize mental healthcare and get young veterans 
into the Vet Centers and the VA Medical Centers.
    The Ad Council has made some memorable and effective ads 
like those that you have mentioned in your testimony, but they 
typically seem to reach a well-defined, traditional audience.
    What kind of challenges have you had in defining the 
priorities of your audience?
    Ms. Williamson. I think we have actually been very lucky 
with this campaign, that the Ad Council has been so open to 
really researching what veterans today need not only, you know, 
by reaching out to our membership--we are, you know, the first 
and largest Iraq and Afghanistan veterans' group, so we brought 
a lot to the table on that front--but also doing focus groups 
and interviews nationwide to really identify not only where are 
the gaps in services, certainly we talked about that, but also 
what kind of messaging is going to be effective.
    You know, you do not necessarily want to hear mental 
healthcare in an advertisement. That is actually probably kind 
of intimidating to a lot of people. So on a lot of those 
fronts, I think Ad Council can do a really good job of making 
sure to do their research.
    I think in terms of like ad placement and those elements, I 
think we are lucky in that public service announcements tend to 
get run in places where people are aware of those issues. So, 
for example, around military towns, we can expect a high level 
of interest in the campaign. And I think we will do more work 
on that front going toward as we get closer to the launch.
    Mr. Mitchell. Thank you.
    Dr. Goodstein, your five steps to building an effective 
outreach plan seem pretty self-explanatory, but I am concerned 
about the implementation.
    The government operates at a different pace with different 
concerns and priorities than the private sector. We need 
complex oversight and bureaucracy to get things done and that 
usually takes some time which is definitely not on our side.
    In developing this plan, what should be the measures of 
success and how would you ensure that the VA's efforts are 
effective?
    Mr. Goodstein. Thank you. I think the five steps, 
awareness, comprehension, image, attitude, and behavior, you do 
not have to do them all at one time. In fact, they rarely 
happen all at one time, nor will all of them occur through 
advertising.
    And I think the idea is to set up and understand for a 
particular veterans' group with particular problems where are 
they currently. If they are unaware that the VA has those 
issues, then we need to make them aware. Advertising is a good 
way to do that. But we need to change image. Advertising is a 
good way to do that.
    But as far as enacting behaviors, attitudes and behaviors, 
that is more one-to-one. We have to get them in to have the 
initial conversations and coordinate and integrate a sales 
strategy in the private sector by the one-on-one meeting 
strategy with these people and behavior to make that happen.
    I also think it is the case that when we look at it that 
way that peer-to-peer communications is going to matter a lot. 
Using social networks of people who have been successful, 
telling customer success stories, and integrating what my 
colleague, Dr. Sutton, as well, the measures have to reflect 
what the goals are.
    So if we are looking to change behavior and get people with 
the need into the VA hospitals for mental health, then 
measuring awareness of a campaign is an incorrect measure. 
Measuring exposure is an incorrect measure. You have to measure 
what the goals are at each step.
    And even though this is public sector versus private 
sector, you cannot ignore any of the steps. People are not 
going to see Gary Sinise, for instance, in a public service 
announcement and say, great, lay me down on the sofa and let me 
talk to you about my issues.
    I think you have to go through those stages more quickly or 
less quickly, but the idea of integrating communications allows 
you to go through that whole process.
    Mr. Mitchell. Thank you.
    And, Ms. O'Herrin, you spoke about the box of VA brochures 
in your written statement in your closet at your parents' house 
and also about the need for VA to use new media to reach 
younger veterans.
    E-mail has a greater potential to get the word out quickly, 
but it also can turn into a box of unread brochures. In the 
end, it comes down to making sure veterans know that the VA is 
there to help.
    How do you reinforce that in younger veterans and in women?
    Ms. O'Herrin. Well, I think that now that we are in the 
information age that the VA definitely needs to implement e-
mail. I am really, really surprised that there is no 
implementation of e-mail. There is no line to fill out for 
veterans when they separate to write down their e-mail address 
so the VA can conduct them that way. It is strictly a snail 
mail campaign.
    And that to me is something that I understand that e-mail 
in boxes can clog up very easily. I mean, I have hundreds in my 
spam folder. But with the data collection capacities that the 
VA has, it is very easy for them. I think it would be easy to 
implement a strategy to pluck categories from the different 
data to specifically tailor e-mails to a veteran. A veteran 
could choose which benefits they want to receive more 
information on.
    For example, I graduated college. I am not particularly 
interested in receiving education benefit information in the 
State of Wisconsin any longer. But if I could tailor my 
requests and kind of take myself off a mailing list or add 
myself to a mailing list, I think that that would make the e-
mails much more relevant to me and it would not become a box of 
pamphlets gathering dust underneath my parents' bed.
    I think it would be a much better system. And when you have 
an e-mail system--for example, I understand the VA is 
implementing a calling campaign to reach out to veterans and I 
think that that is a very personal touch to let them know 
somebody cares whether or not they are getting their 
healthcare.
    But I also know that the only way of getting a hold of me 
is through my cell phone. And I do not pick up my cell phone 
ever if I do not recognize the number. And I think that that is 
the case with a lot of veterans and I foresee some problems 
with that. And I think that when it is an e-mail information 
technique, that it would be reaching a more receptive audience.
    Mr. Mitchell. Thank you.
    Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much.
    Ms. O'Herrin, first of all, thank you very much for your 
service spending three tours in Iraq. I think every Member of 
this panel admires and respects your service, so thank you very 
much for that, first of all.
    And you answered a question that I asked just last night 
and that is are the e-mails of those who are ending their tours 
in OIF or Operation Enduring Freedom (OEF), is either DoD and/
or VA capturing those e-mail addresses. I think it is very 
important that when you fill out the forms, that be part of it 
so that people can communicate and get the latest information.
    I just asked that question last night and thank you very 
much. The response was they did not think it was there and you 
just confirmed it.
    I believe that the VA should concentrate on their customer, 
the customer being the returning veteran. From your experience, 
what do you think transitioning men and women who have served 
think or what are their perceptions of the VA?
    Ms. O'Herrin. I worked in college at my student veterans 
organization, so I dealt with veterans from every branch, every 
kind of background you could ever imagine. So I spent a lot of 
time in conversation with other veterans thinking about how 
they view the VA. I have had a lot of these conversations.
    And I think by and large, everyone knows that the VA 
provides services. They know where the VA building is located. 
They know how to get the VA Web site. They know that the 
information is there. But I do not know that they necessarily 
feel that it is approachable. I do not think that there is 
anything especially appealing about the VA's services. They are 
just there.
    And I think oftentimes most veterans wait until there is a 
very significant problem before they seek out like, do I even 
have healthcare. It takes coming down with, you know, 
appendicitis or something like that before they actually 
investigate if they have VA services available to them.
    And I think that if these things are conveyed in different 
manner, through ad campaigns, through e-mail campaigns that it 
would be less of veterans waiting until there is an actual 
problem before they seek out help. I think if there is a more 
proactive method that veterans would feel that the VA is 
significantly more approachable.
    Ms. Brown-Waite. So is it safe to say it is not a lack of 
trust of the VA, but rather stale information? Would that be a 
fair thing to say?
    Ms. O'Herrin. I guess it depends on the issue. For example, 
I think with PTSD, I understand that--I have a lot of comrades 
that would not go to the VA for post traumatic stress disorder 
because they were still in the National Guard. And so they knew 
that if they were seen for certain things that it would get put 
on their record.
    So I do not know if it is a lack of trust. It is a problem 
in the system where they were not seeking treatment from the VA 
even though there was that help available because they did not 
want it to reflect poorly on them.
    So I guess it depends on the issue. I do not think that it 
is necessarily a lack of trust across the board. I think it is 
that it is just not necessarily that appealing, but I do not 
think it is a lack of trust in all issues, no.
    Ms. Brown-Waite. Okay. So it is stale, not really appealing 
to the current veteran?
    Ms. O'Herrin. Right. I think most people----
    Ms. Brown-Waite. Would that be a fair thing to say?
    Ms. O'Herrin. Yes, ma'am. I think that most people, they 
know that the services are there, but they are not seeking them 
out for whatever reason. And I think it is our job to figure 
out why that is.
    Ms. Brown-Waite. About how much time would you say that 
veterans on average, the new generation of veterans, spend 
using the Internet? Just give me a ballpark figure.
    Ms. O'Herrin. I am going to be totally honest here. When I 
was in college, I think I spent like 6 hours a day on the 
Internet at least, at least, I mean, if not more. Now, that is 
a college environment. It is not like I had a full-time job 
that kept me off the computer. But I would say anywhere between 
1 hour to 6 hours a day on the Internet in all honesty.
    Ms. Brown-Waite. Okay. Ms. Williamson, I have one, and my 
time is running out here, but I have just one question where 
you talk about the VA home loan program and the VA backed 
mortgages are not going into foreclosure at the same rate as 
subprime loans are.
    Certainly this is to VA's credit because they did not 
change their underwriting standards, which is very important. 
As you know, there is a timing problem here and I have 
introduced legislation that actually extends the VA's 
adjustable rate mortgage (ARM) and Hybrid ARM under title 38. 
Hopefully that bill will pass and get that language out there.
    When you do the ads through the Ad Council, are they 
coordinated with the VA? Now that the VA is going to be doing 
ads, do you plan on coordinating?
    Ms. Williamson. Thank you.
    I'll answer the two parts there. First of all, on the home 
loan part, I think you are absolutely right. There are several 
legislative fixes that the home loan system needs, not the 
least of which I think is the ability for the VA to be able to 
refinance loans that are bad right now. As I understand, that 
is still a problem.
    On the coordination with the VA front, IAVA has met with 
the VA actually specifically about our campaign three times now 
in the last 2 months. So we have taken that first step.
    We still have about 6 months before the campaign begins and 
I want to make sure that the VA is ready for an increase in 
demand and to make sure that we have coordinated so that the 
campaign directs you to the best possible resources.
    In terms of the substance of the campaign, that is 
something that IAVA is working with Ad Council and the ad 
company that is producing the ads. They are separate from VA.
    Ms. Brown-Waite. Okay. Thank you.
    And I yield back the balance of my time.
    Mr. Mitchell. Thank you.
    Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And thank you to all of you for coming here to help us 
understand this issue and work through it. I can say that I 
think you had some of the most lucid testimony we have heard 
here in a long time and I very much appreciate that.
    An important issue. It is also one that is part of a 
bigger, the 30,000 foot vision here, and I think Ms. O'Herrin 
summed it up right. It is this seamless transition issue. The 
DoD is one silo and VA is another silo and this is an issue 
people have been working on.
    And I will have to say to Secretary Peake, and I know we 
are going to have Assistant Secretary Mondello up here, these 
are people who are totally committed to getting this right. And 
there is a real proactive approach to getting this.
    So all of you being here today to help us understand this 
is part of the solution. So I very much appreciate that.
    Ms. O'Herrin, I especially like your--you are definitely an 
AFN aficionado, myself too. I still practice Opsec every day on 
my car from a year of that in 2003, 2004. So you are right.
    And I am interested in this issue of awareness versus 
effectiveness, which I think is very important. And I know Dr. 
Goodstein was getting at that part, we are all in this. We all 
want to go. We want to put the resources forward. We have a 
great institution that hopefully, as Ms. Williamson talked 
about, is prepared for the influx. But let us make sure that it 
is actually targeted right.
    And I am interested across the spectrum. Obviously we have 
different generations of veterans. We are trying to reach all 
of them. Obviously this newest generation is much more of a 
challenge.
    And I was going to ask a question. As we heard, I think it 
would shock many younger veterans and it should shock many 
people here that you are receiving no e-mail communications on 
the VA side. That part, of course, somewhat troubles me.
    There was an article today in my local newspaper about the 
Kosovo veterans who are returning and one of the comments they 
made was, Facebook was their life line. That was the first 
thing they said when they came back. Not asked about anything 
else. Oh, it is great to be home, but I am telling you without 
Facebook, I would have been lost.
    So it is not jumping on the newest fad. It is not us 
looking for quick ways because Dr. Goodstein is going to say 
the research will point us there, but I am concerned that we 
have not embraced it enough. And I get to thinking and I think 
you have comments in your written testimony on the VA Web site.
    How would you describe the VA Web site, Ms. O'Herrin, in 
your opinion?
    Ms. O'Herrin. It is very informative. There are links to 
every possible benefit you could possibly imagine and there is 
no shortage of information whatsoever. But a lot of times, 
people are eligible for conflicting benefits. They are not 
entirely sure which one overrides the other. It is not 
extremely user friendly. The information is there, but it is 
not in layman's terms. It is in dense language.
    Mr. Walz. So for people of your generation, our incoming 
veterans, its effectiveness again, awareness that it is there 
and information, but its effectiveness in working, you would 
say is probably not as good as it could be?
    Ms. O'Herrin. Sure. And I think this is where veterans 
service organization, I think, are trying to carry the ball is 
they are trying to break it down into layman's terms. They are 
trying to make it understandable for your average returning 
veteran.
    And so they are taking the official language and breaking 
it down. And that can get a little dangerous sometimes because 
then it is not coming from an official source, but that is what 
is happening. It is being condensed by other groups who are 
translating it into normal layman's terms.
    Mr. Walz. Okay. Very good.
    Dr. Goodstein, I want to get back to you. And I could not 
agree with you more. We need to get this right. We need to do 
the research ahead of time. Dr. Sutton was very clear to talk 
to us about that.
    In a campaign like this and what we are trying to do in 
terms of outreach and make sure that there is that seamlessness 
there to the VA, what kind of timeline are you talking about 
that it would take to do this, to plan, prepare, implement, and 
then measure results?
    Mr. Goodstein. I am going to answer two questions, one that 
was not asked and one that was because I am going to followup 
on Ms. O'Herrin's comment.
    I agree. I do analyses of a lot of companies' Web sites. I 
would have to say that the VA's Web site is ineffective as 
well. And I just want to point out the reason is it is all 
about the VA and what the VA does and offers.
    What it is not about is the VA's customers. So instead of 
talking about who are we and what do we offer you, there should 
be a place to come in on the initial site and say who are you 
and what are the issues you are having.
    So instead of seeing the 5,000 things that the VA does, 
okay, like a buffet, what you do is you put in who are you and 
what are your issues and you only see the meal that is 
appropriate for you. And the best Web sites in the world look 
at it more like that. Okay?
    As far as the research timeline, to do the kind of research 
we are talking about, qualitative to find out what the issues 
are, who these people are, what their motivations are, and then 
following up with quantitative surveys to see how many people 
have those issues, what their media habits are, et cetera, to 
get all that in.
    I do not think you are delaying the delivery of a campaign 
by more than probably 4 to 6 months if you do the research 
right. It is just a matter of starting it now and it may also 
be the case that a lot of research already exists, especially 
on the qualitative side.
    It sounds like there has been interviews, there has been 
focus groups. Taking those and then quantifying who are these 
people and how do you reach them.
    Mr. Walz. I very much appreciate that because I think the 
ironic thing of this whole discussion is there is probably no 
more focused group on what it takes to reach out a message than 
people who sit here, and the number of times they will see 
their faces on TV or on Web sites between now and November. 
And, yet, we are having problems getting this part of it right. 
They know what it takes. We know what it takes and we know 
exactly what you are talking about on doing that. Now we need 
to implement that.
    So I thank you.
    Mr. Mitchell. Mr. Space.
    Mr. Space. Thank you, Mr. Chairman.
    I have no questions or comments. I would simply like to 
thank the panel for its preparation and candid testimony.
    And in so thanking you, I yield back.
    Mr. Mitchell. We are going to go to votes probably within 
the next half hour; is that correct? So I want to thank you all 
for coming and I appreciate very much for all your service, for 
your advice and information that you are giving us today.
    One thing I think we all know is that just because you 
spend a lot of money does not mean that you are going to get 
the results that you want. Obviously, and as a former teacher 
myself, I know that research is so important if you are going 
to ultimately get where you are after and not just to throw 
time or money into it. It is important.
    And thank you so much for all of your comments. Thank you. 
Thank you for being here.
    Ms. Mondello is the Assistant Secretary of Public and 
Intergovernmental Affairs for the U.S. Department of Veterans 
Affairs.
    And thank you so much for being here.

  STATEMENT OF HON. LISETTE M. MONDELLO, ASSISTANT SECRETARY, 
OFFICE OF PUBLIC AND INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT 
                      OF VETERANS AFFAIRS

    Ms. Mondello. Chairman Mitchell, Ranking Member Brown-
Waite, Members of the Subcommittee, I am very pleased to be 
here today to participate in this hearing regarding media 
outreach to veterans.
    I want to thank you for giving me the opportunity to talk 
about an important tool the VA now has at our disposal, a paid 
advertising option for outreach.
    With the recent decision to allow VA to use paid 
advertising resources, we are excited to share with you our 
ideas on using this tool to modernize and reshape our efforts 
to more effectively reach and educate veterans and their 
families about VA's benefits and services.
    Our mission at the VA is very clear. To do all within our 
authority and ability to help servicemembers readjust 
successfully back into civilian society after their military 
experience ends and to make sure they know that the VA is there 
to provide healthcare, benefits, and other services they have 
earned.
    I am confident that appropriate use of paid advertising 
will allow us to dramatically modernize our techniques to reach 
out to veterans and their families in more creative and 
effective ways.
    I would certainly be remiss if I did not thank you, Mr. 
Chairman, and Congressman Boozman for your role in helping 
invigorate this effort as your interest led to a reexamination 
of the scope of VA's authorities in this area.
    As mentioned previously, on June 16th, less than a month 
ago, Secretary Peake lifted the restriction on paid 
advertising. And I will tell you, and I think many of you 
already know this, I am a very enthusiastic supporter of this 
effort and my office, the Office of Public and 
Intergovernmental Affairs, very gladly accepts this new 
responsibility for coordinating the Department's media 
advertising efforts.
    The Ranking Member mentioned that Secretary Peake's 
decision requires the Under Secretaries of Health, Benefits, 
and Cemeteries to coordinate with the Assistant Secretary for 
Public and Intergovernmental Affairs about outreach, media 
plans, education, and awareness campaigns and initiatives, and 
for me to recommend to him further steps to improve our ability 
to reach veterans.
    In the few weeks since the change, there have already been 
a number of meetings with the Veterans Health, Benefits, and 
National Cemetery Administrations as well as relevant staff 
offices working together to move this effort forward.
    And, Mr. Chairman, we are committed to keeping the 
Committee informed as we turn these plans into concrete 
actions. This partnership with Congress and your support is 
critical to the success of this effort.
    One of the key parts of the rescission allows the Under 
Secretaries to purchase advertising in media outlets for the 
purpose of promoting awareness of benefits and services. The 
decision allows us to use proven, modern advertising techniques 
that will appeal to veterans of all ages and their family 
members. It will give VA, with its variety and diversity of 
services and benefits, the ability to provide the right message 
through the right medium to reach veterans.
    Traditional advertising venues such as broadcast and print 
are available to us, but we are also looking at social 
marketing and Internet-based, nontraditional media such as 
YouTube, Facebook, My Space, as well as podcasting. All will be 
considered and evaluated in our outreach efforts to veterans.
    Our goal is to reach veterans who have just returned from 
Iraq and Afghanistan, but also those who served in World War 
II, in Korea, during the Cold War, Vietnam, the Persian Gulf 
War. We want to reach all veterans of all eras of service with 
the messages of greatest concern to them. And we want to do it 
through the medium that is most appropriate and most effective.
    Face Book might work best for veterans returning from Iraq 
and Afghanistan who, frankly, are on Facebook while they are in 
combat and in theater, but it may not be the best avenue to 
reach our Vietnam veterans.
    On November 14th, 2006, the VA submitted to Congress a 5-
year strategic plan that covered 2006 to 2011 and it included 
an outreach component. At that time, the plan was done with the 
preclusion from using paid outreach advertising. It is now 
being revised to include a robust advertising approach.
    It is our goal to provide the updated outreach strategic 
plan to you in December of 2008 when we submit our already 
scheduled report to Congress of outreach activities.
    We also aim to include this year's, fiscal year 2008 fiscal 
year's accomplishments of our current business plan objectives 
which will be linked to the strategic plan goals in the report.
    Of course, with every new opportunity, there come new 
challenges. Moving forward, we intend to develop a sound 
approach, a business-like approach that has been mentioned here 
with steps that will include such things as an internal group 
including key legal, budget, communication staff who, by the 
way, have already begun meeting with me to move forward and 
begin to take action steps quickly.
    We are developing a request for proposals and information 
to contract for outside professional advertising and research 
expertise to assist the VA.
    And I just mention as an aside that when I met with Ms. 
Williamson from IAVA, as well as the Ad Council representative, 
that was one of the Ad Council representative's key 
recommendations to us; to get outside expertise before we start 
any initiative.
    We are reviewing the budget to determine available funding 
for the remainder of this fiscal year and fiscal year 2009 and 
we are already actively engaged with the national Ad Council 
and the Iraq and Afghanistan Veterans of America to, as the 
Ranking Member said, to coordinate on their fall national 
public service campaign on mental health for returning 
veterans. And both Ms. Williamson and the Ranking Member talked 
about the importance of coordination.
    As a Department, we recognize that we must seek outside 
professional outreach and advertising assistance. While I am 
very proud of our public affairs professionals, we simply do 
not have the advertising and research expertise within the 
Department at this time.
    Our goal is to make veterans and their families aware of 
the benefits and the services that VA has to offer.
    Looking to the future, we intend to use whatever outreach 
and advertising techniques appear to work. We will keep an open 
mind. We will aggressively seek to find the best advertising 
technology available.
    Before I conclude, I wanted to just share with you a 
current outreach pilot that the Veterans Health Administration 
is getting ready to conduct on suicide prevention awareness.
    Let me just share with you some of the examples that we 
will be using in this initial effort to reach out to veterans, 
and the pilot program is in the Washington, DC, area.
    And the first is the dioramas that will be in the metro 
stations and this program is going to start out, it launches 
July 21st, next Monday.
    The second are the bus tail lights will be on metro buses, 
on a variety of routes, and these are the bus taillight 
placards.
    And third are the metro signs inside the metro rail cars 
and it has a message and asks people to call if they need help. 
And it is to increase the awareness of our suicide prevention 
hotline number where they can access help.
    And, lastly, I want to show you, it was mentioned a little 
earlier, there is a public service ad nonpaid, a voluntary 
public service announcement that Gary Sinise who, as you know, 
is in the show CSI and has been in Forrest Gump, but he is also 
a tremendous advocate for veterans and has served as the MC for 
Veterans Day ceremonies at Arlington National Cemetery for the 
VA.
    He did a public service ad and we have the raw footage. We 
have not done the post production editing yet, but the Office 
of Health Communication has done this.
    [Video shown.]
    The Department is going to assess the effectiveness of this 
pilot campaign and if it is successful, it will be exported to 
other parts of the country.
    As we move forward, sir, we will continue to work closely 
with you and we welcome your suggestions. We believe the 
opportunities are vast and we will pursue this new approach 
with vigor.
    On this issue, I believe we are in total agreement. We must 
move quickly with sound expertise based on the strategic needs 
of this Department using a wide variety of options to reach out 
and positively connect with veterans and the families with the 
information they need.
    [The prepared statement of Ms. Mondello appears on p. 48.]
    Mr. Mitchell. Thank you.
    Ms. Mondello. Thank you, sir.
    Mr. Mitchell. Thank you very much.
    I just have a couple questions before we turn it over. 
First, I am sure you heard the testimony before you.
    Ms. Mondello. Yes, sir.
    Mr. Mitchell. One of the things that was interesting was 
that you really need, and maybe not you, but someone in the VA, 
to redo your Web site, one that is more inviting. And I think 
we heard that from everybody here on the panel before you, make 
it more inviting, not just a list of menu items.
    We all know as politicians how important Web sites are to 
attract people to them and to have them become involved. So I 
know there is a lot of expertise out there and I think that is 
something that needs to be done almost immediately.
    And the other thing I heard over and over is the importance 
of research. You just do not go do something and throw money at 
it.
    Ms. Mondello. Right.
    Mr. Mitchell. You have to do sound research. And I am not 
suggesting, and I think you even mentioned that you do not have 
the expertise within, and I am not saying you should.
    Ms. Mondello. Right.
    Mr. Mitchell. But what you should be able to do is to go 
out and seek the newest and the best research on how to reach 
the variety of veterans that we have out there. And, again, 
like you say, maybe Facebook is good for Iraqi veterans, but it 
is important that we find a variety of ways to reach these 
veterans.
    And I think you mentioned this, and I just want to mention 
this very quickly before I pass this on. We have heard from a 
lot of veterans that sometimes they do not think they need 
suicide counseling. But just talking to veterans, we realize 
how important it is to have these people and I guess it is 
destigmatizing, which is what many of the veterans service 
organizations are trying to do about PTSD.
    Do you plan on promoting alternatives to a suicide hotline? 
And the second part of that, do you consider this developing in 
developing a pilot program about suicide hotline promotional 
materials? It is important that we understand the materials 
that you are using to get people to first of all contact the 
hotline, and then followup on it. And I also want to know 
about, are you having a way to measure this? Is there a way 
that you are measuring how effective the hotline is?
    Ms. Mondello. Yes, sir. Let me take each one of those 
separately.
    Let me first start by saying, listening to both the experts 
on the panel before me, we absolutely agree that we need to 
have the appropriate research done. When I said we are not 
experts in advertising, you are absolutely right. The scenario 
that I envision that I think does not benefit anyone, most of 
all veterans who need to become aware of our services, is for 
us to throw an ad campaign up that is not targeted, that has 
not been researched, and is not effective.
    I mean, that makes no sense whatsoever. And I think we 
would be coming back here and talking to you a few months down 
the road to say we are so sorry. I would like to avoid that. I 
absolutely agree. We are going out to get that expertise to 
start with so that when we do it, we do it right. We have an 
obligation.
    One of the things, and I digress for a minute, but I think 
it answers the second part of your question, is the last 
meeting we had, and I think it was last week, Ms. Williamson 
came to my office and we had her meet with not just our public 
affairs and community relations folks, but also with Dr. Al 
Batres who heads up the Vet Centers for the VA.
    That is a fabulous program that targets only, as the 
Committee is well aware, our combat veterans. And that we 
wanted to make sure that we were speaking with IAVA and the Ad 
Council early in their process of determining what goes on 
their Web site and where they are steering veterans to know 
various places to go for help.
    I think that you are going to see a lot of dialog with the 
Vet Centers, which is probably the place that most folks are 
going to come first. We are going to make sure that we are 
talking up front and early.
    I think that is something that addresses the first part of 
your questions. I am trying to remember the second half of your 
question now.
    Mr. Mitchell. That is okay. We are kind of running out of 
time.
    Ms. Mondello. Okay. Sorry.
    Mr. Mitchell. Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman.
    And thank you very much for being here.
    Ms. Mondello. Thank you.
    Ms. Brown-Waite. Right now are there any policies that 
prohibit the VA from capturing e-mail addresses?
    Ms. Mondello. I do not know if it is policies, although 
privacy issues always are looming in the background. I do not 
know if it is policies or not.
    Ms. Brown-Waite. You get Social Security number, name, date 
of birth, and everything else, so I doubt very highly, ma'am, 
with all due respect that getting one's e-mail is--because you 
can change e-mail addresses, your Internet service provider, 
but you are not going to change your date of birth and you are 
not going to change your Social Security number. So I do not 
accept that as a response.
    Ms. Mondello. But I think that I understand from Veterans 
Benefits Administration that the Benefits Executive Committee 
between DoD and VA is meeting to look at gathering and asking 
for e-mail addresses.
    Ms. Brown-Waite. You are not answering my question. Is 
there a prohibition now against getting one's e-mail addresses?
    Ms. Mondello. I do not know.
    Ms. Brown-Waite. Okay.
    Ms. Mondello. I can find that out and get that information 
and get back to you, ma'am.
    Ms. Brown-Waite. Okay. If you would get that, I would 
appreciate it.
    [Followup information regarding veterans' e-mail 
distribution lists are included in the post-hearing questions 
and response for the record from Ms. Brown-Waite, which appear 
on p. 56.]
    Ms. Mondello. Yes, ma'am.
    Ms. Brown-Waite. The other question is, does the VA 
actually have the authority to use, for example, commercial Web 
sites like Facebook and YouTube? And the reason I am asking 
this is because the House cannot use these sites or even have a 
link to them because of the advertisements that are on there.
    So obviously I think the VA would face the same problem 
because what you do not want to do is you do not want to have 
an implied----
    Ms. Mondello. Endorsement.
    Ms. Brown-Waite [continuing]. Endorsement of the latest GM 
product or Viagra or whatever is being advertised there.
    Ms. Mondello. There are issues facing the VA, as well as 
all the Federal Government. I know Federal Government agencies 
have certain issues that are precluding them from getting on 
the commercial, social marketing Web sites.
    Other agencies, as well as the VA, are looking at how to do 
that; how to allow the Federal Government to work with those 
sites. I do not know if the House and the Senate have the same 
rules. The question for us is can the Federal Government rules 
be adapted or their standard procedures be adapted to allow us 
to use those social marketing sites?
    The Secretary has asked the General Counsel to look at 
that. I know that a lot of the other Federal agencies are 
looking at the same thing.
    Ms. Brown-Waite. I think what you would be looking at is a 
nonbranded site, that you would be looking to those entities to 
have a nonbranded site where there are not advertisements on 
there.
    I have a large number of Vietnam vets coming back and had a 
tacky situation in my district where the VA was trying to--I do 
not want to use a pejorative term, but where the VA was trying 
push them out of the nest. I think that is a very kind 
statement, of pushing this group of Vietnam vets out of the 
nest.
    What are you going to do to help the VA help the Vietnam 
vets who are out there who also need to have advertisements so 
that they know, for example, where they can be treated for 
PTSD, where they can get counseling, and how exactly are you 
going to remedy this ``I cannot go for counseling because 
someone will find out''?
    Ms. Mondello. Well, for the first part of your question, I 
think that we at the VA are very cognizant that we represent 
all veterans of all eras.
    I think in the outreach campaign for mental health, as well 
as for other benefits and services, we would want to ensure 
that we are using the right messages and the right medium for 
each era's veterans that we are trying to reach.
    I think that the Ranking Member is bringing up a very 
important point. It is not just current conflict, but all 
conflicts and all eras of veterans that we are providing 
services to and we need to make sure that they hear the right 
message about our services, tailored for them.
    Ms. Brown-Waite. The impression that was out there was, 
okay, we took care of you guys for X number of years, now we 
have new people coming in needing counseling, so we are 
breaking up this group. I had to intervene. I had to do that 
because these veterans were finally having a breakthrough.
    And I can tell you that I got a lot of cooperation from the 
nearby hospital when the veterans contacted me and said help, 
but please let us make sure we do not send out the wrong 
message. Let us not say we want to bring in OEF/OIF and then be 
slowly pushing others aside. I think that would be a travesty. 
Please commit to me that that is not going to happen.
    Ms. Mondello. That is definitely not our policy. I do not 
know about this particular instance you referenced and I am 
sorry that you had to intervene.
    Ms. Brown-Waite. I got involved and I got it resolved 
thankfully.
    Ms. Mondello. Thank you.
    Ms. Brown-Waite. But what I do not want to see this 
happening in other districts where veterans may be somewhat 
reluctant to go to their Member of Congress or not even know 
who their Member of Congress is and then have those services 
sharply curtailed.
    Ms. Mondello. Yes, ma'am.
    Ms. Brown-Waite. Thank you.
    I yield back.
    Mr. Mitchell. Thank you.
    Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And, Assistant Secretary Mondello, thank you. I appreciate 
the passion with which you are going after this.
    I can tell you that this Committee is here and the people 
of the district that I represent in Minnesota are totally 
committing to whatever it takes to get our veterans everything 
that we can possibly get them to make their lives whole again.
    A couple of things. I know we are only a month into the 
change in policy on the, you know, purchasing of the media and 
the things like that. You have given us a timeline of the 
strategic plan. That strategic plan is bigger and has already 
been out there before this planning.
    Am I to understand, are you hiring the experts and doing 
the research now as we speak with the idea that we will look at 
it in December?
    Ms. Mondello. Yes. We have already met with the 
communications folk. I have already brought in the 
administrations. We've talked to the lawyers in the General 
Counsel's Office as well as our Budget and Management Assistant 
Secretary and the head of acquisition. They will tell you at 
the VA that I am not shy. We are pushing to get this done now.
    Mr. Walz. And Dr. Goodstein's suggestion on, you know, I 
guess I would summarize it as best practices of research for 
advertising----
    Ms. Mondello. Yes. Yes.
    Mr. Walz [continuing]. That is happening as we speak?
    Ms. Mondello. Yes, because as I mentioned----
    Mr. Walz. How did this campaign come about? Did this go 
through all those procedures?
    Ms. Mondello. No.
    Mr. Walz. Because I would ask, Ms. O'Herrin, would this 
work for you, this placard on the metro?
    Ms. O'Herrin. I do not think I would call.
    Mr. Walz. Okay. So I am wondering, you know. So we put 
money into this and it did not go through those procedures of 
best practice to measure effectiveness or anything?
    Ms. Mondello. That would be correct. Although the Office of 
Health Communication in VHA does a very good job of working and 
doing programs like this to reach out to various veterans, I 
think that bringing in more professional best practices will 
benefit and make all their work, which is very good, more 
effective.
    Mr. Walz. Did the ad with Gary Sinise, did it go through 
that or was that different too?
    Ms. Mondello. It did not. It did not go through formal----
    Mr. Walz. Did that one work for you?
    Ms. O'Herrin. That one I liked.
    Mr. Walz. So did I. And I am wondering. Dr. Goodstein would 
you say there are certain elements here, I am guessing, that 
were at play.
    Dr. Goodstein. Right. But I would also say that part of it 
is for a particular generation, Forrest Gump is relevant as 
being whatever his character was, Lieutenant Dan. But for the 
younger generation that is coming back from Iraq, they probably 
did not even see Forrest Gump. It is 20 years old.
    Mr. Walz. He is on CSI.
    Ms. Mondello. He is on CSI, so that is----
    Mr. Walz. That's on AFN. And I want to make it clear that 
these questions are meant so we get this right. I do not 
question the commitment of the Secretary, yourself, or anyone 
else.
    My biggest concern that I would end with here is, and this 
is the bigger cultural issue of probably this Congress, maybe 
even country-wide, is we are 5 to 7 years into these conflicts 
and here we sit talking about this. This was anticipated. This 
should have been anticipated and these plans should have been 
there.
    So I will ask the next question that our job is to hope for 
the best, plan for the worst. What are we going to do for the 
next conflict? What are we going to do for the next group that 
surpasses the Iraqi and Afghan veterans? What are we going to 
do now as we implement this with a strategic vision that 
extends and can seamlessly get us into that? Has that been 
brought up, been talked about?
    Ms. Mondello. Yes, sir. I think what we want to do and the 
way we have talked about it in Public Affairs and certainly 
among the communication folks that have been meeting is we want 
to set the appropriate foundation.
    I think someone on the first panel mentioned VA healthcare 
is some of the best healthcare you can get in the country 
period.
    Mr. Walz. Absolutely.
    Ms. Mondello. We have a plethora of benefits that are 
available to returning servicemembers and to our veterans. We 
want to make sure that for this tool from what my office and 
what our communicators can do is that we are setting a 
foundation that we are doing it right so that we are most 
effectively raising the awareness and using the tools to raise 
the awareness of those services and benefits so hopefully some 
of my successor Assistant Secretaries are not up here saying I 
do not know why that plan did not work.
    And I think the Chairman or the Ranking Member also asked 
about Metrix. We are going to do Metrix to determine the 
effectiveness.
    I think that Dr. Goodstein said you really should not just 
throw things up there without knowing if they work. Someone 
told me, you are talking about business plans. We are. We are 
talking about best practices and a business foundation that is 
correct.
    Mr. Walz. At the VA, and I know this probably is at a 
little different level, but it is one that better be happening, 
has a discussion on realistic budgeting been brought up on this 
because if you are successful, it is going to cost more money? 
I will guarantee you that.
    And as the Chairman said, it is not about throwing money at 
it. But if we are successful in ramping up those numbers, that 
is going to be an implication down the road. And to wait and 
not do it and then all of a sudden find ourselves in a budget 
shortage where we say, okay, Priority 7 veterans are no longer 
allowed, Priority 6, to take care of these, has that been 
discussed? I mean, is that at least out there? And this is, I 
understand, somewhat subjective because you are not the person 
involved in that.
    Ms. Mondello. I believe that should be discussed at higher 
than my station at the Department, but I believe that we are 
looking at ensuring that we--our job, we feel, is to let as 
many veterans know about the services and the benefits.
    Mr. Walz. Very good. Thank you.
    Mr. Mitchell. Thank you very much.
    And as we started out in my opening statement, I pointed 
out that there is a veterans' population of about 25 million 
and only 7.8 are actually enrolled in healthcare. And of the 
7.8, only 5\1/2\ million were actually treated. So there is a 
large number, and that is what this is about, of veterans who 
are not enrolled who do not know about the services.
    Now, what started this, of course, was reaching out for 
those who have PTSD or traumatic brain injury. It is important 
for all the other services, but we want to try to save lives. 
We do not want someone to be able to survive a tour of duty in 
the theater and come back here and feel all is lost.
    Ms. Mondello. Right.
    Mr. Mitchell. This is what is important.
    Ms. Mondello. Yes, sir.
    Mr. Mitchell. So the whole purpose of this is to try to 
reach out, for the VA to go out and to find these veterans and 
make them feel at home and provide the services that they need 
and that are actually out there.
    I think we have already heard there is a whole list of 
services. It is just that all of these people, in fact the 
majority of veterans do not know about them. And, in fact, half 
of them are not even enrolled in the healthcare service. And I 
think that is a responsibility that we hope that you as the VA 
go out and try to bring these people in.
    Ms. Mondello. Yes, sir. Thank you.
    Mr. Mitchell. Thank you.
    If there is no other questions--yes?
    Ms. Brown-Waite. Mr. Chairman, I would just interject that 
many of the veterans who did not seek the VA healthcare had 
healthcare benefits through their employers and/or are now 
retired and on Medicare. So many people, I know many veterans 
have told me, no, I did not enroll because I had excellent 
healthcare.
    So while we have that many veterans out there, we have to 
also remember that many of them have great healthcare. And 
comments had been made to me like, well, I just felt it would 
be selfish of me to apply for some veteran's healthcare when I 
had healthcare of my own and that it should be reserved for 
those combat-related injuries, someone who does not have 
insurance. So while the figure may be 25 million, many of them 
do have health insurance coverage elsewhere.
    One other thing that I did want to bring up and that is the 
``National Defense Authorization Act,'' Public Law 110-181, 
that was just signed by the President this January that extends 
the period of enhanced enrollment opportunities for healthcare 
for veterans who served in a theater of combat after November 
11th, 1998, and it gives them a long period of time.
    How are you getting this word out there?
    Ms. Mondello. Currently, even before the advertising 
authority, I know that the Veterans Health Administration, as 
well as the Veterans Benefit Administration, as well as the 
Cemetery Administration, they all do outreach efforts, 
especially for newer veterans at their demobilization sites, at 
the transition assistance sites, that they are doing as much 
and as extensive outreach to bring veterans in and to let them 
know about, particularly for our newest veterans, the extension 
of the 5 years, from 2 years to 5 years of eligibility.
    Ms. Brown-Waite. But you already do that. What are you 
doing beyond that to reach out to these individuals who thought 
that their time to apply had already passed?
    Ms. Mondello. Well, for those who have not come to the VA 
and enrolled, and I think you may be aware the Secretary has 
initiated a call-out, literally a call-out to, I think it is 
approximately 550,000 veterans of the Iraq and Afghanistan 
Wars, to come, to let them know that the VA service is there, 
to let them know that the eligibility period has been more than 
doubled, to let them know what is there, do we need to do 
anything to help them come and sign up and is there anything 
that we need to do. So we are doing an actual call-out to all 
the veterans which is still ongoing.
    Ms. Brown-Waite. Do you use veterans service agencies in 
various counties? Many counties do have a veterans service 
officer, you know, even encourage them to go before county 
commissions which are very often televised where we can help to 
get this word out?
    Ms. Mondello. We have a very good relationship with county 
veterans service officers, in the Office of Intergovernmental 
Affairs, which is the other side of my shop, because they meet 
with veterans at a very local level.
    And we have a pilot program that the Secretary has 
initiated to work with the county service officers to help 
develop claims, so to help make sure that veterans are getting 
in the system quickly and more efficiently.
    So we are looking at all sorts of ways also to work with 
States on how we can help reach out to veterans who are already 
back in their communities which is particularly important with 
Reserve and Guard units, but how to reach veterans in their 
communities who have not signed up.
    Ms. Brown-Waite. And that is a perfect reason why you need 
to have e-mail addresses. Absolute perfect reason.
    Ms. Mondello. I agree.
    Ms. Brown-Waite. I yield back the balance of my time. Thank 
you for your indulgence.
    Mr. Mitchell. Mr. Walz.
    Mr. Walz. No.
    Mr. Mitchell. Thank you very much, and I appreciate all the 
witnesses coming today. This has been very helpful and I 
believe it will serve everyone and their best interest.
    So thank you all, and this concludes the hearing.
    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Prepared Statement of Hon. Harry E. Mitchell, Chairman,
              Subcommittee on Oversight and Investigations

    In December, the full Veterans Affairs Committee held a hearing on 
suicide. We heard from the parents of an Iraq veteran who took his own 
life following his return from combat. Tim, the soldier in question, 
never sought help for his demons. It is impossible to know whether 
things would have been different if Tim had learned of counseling and 
therapy available at VA through televisions advertisements, or Facebook 
postings, or other means that featured Iraq veterans experiencing the 
same problems readjusting to civilian life. But one thing I do know: we 
have an obligation to try to reach the Tims of this world.
    The necessity of outreach is not limited to veterans like Tim. Many 
Iraq and Afghanistan veterans are dealing with combat stress and 
reintegration issues. Many vets have been exposed to IED blasts that 
may have caused subtle visual dysfunctions, or hearing loss, that VA 
can help with. And veterans have earned a number of benefits provided 
by a grateful nation, including the newly enacted GI bill educational 
benefit. VA, and DoD as well, provide lots of information to our troops 
during the discharge process, but numerous hearing of this 
Subcommittee, as well as its sister Subcommittees and the full 
Veterans' Affairs Committee, have shown the necessity for VA to 
proactively seek out veterans after discharge.
    The need for outreach is not limited to our younger veterans. The 
VA has transformed itself over the past 10 to 15 years. VA needs to 
find ways to communicate to older veterans that the VA has health and 
other services, and many benefit programs of which veterans might not 
be aware, that veterans of all ages can benefit from.
    Modern media, such as the Internet and television, are essential 
tools for outreach, particularly when it comes to the younger 
servicemembers. For 20 years, the VA has operated under a policy that 
restricted the use of paid media. On June 16, Secretary Peake rescinded 
this policy. I want to personally commend him for this action.
    The VA now needs to take advantage of the communication 
possibilities of modern media. But it must do so intelligently. VA 
marketing efforts, if that is the right term, are not about the VA, it 
is about our veterans. Before doing anything, the VA must learn to see 
the world from the perspective of the veterans VA wants to reach. VA 
must come to understand where veterans can be reached and what messages 
and messengers will get veterans' intention. This is not something VA 
has done before.
    We have assembled an impressive and, we believe, very helpful group 
of people to discuss these issues. We will first hear from Liz 
O'Herrin, an Iraq veteran, who knows as well as anyone the difficulties 
involved in outreach, as well as the necessity for doing so. We will 
hear from the Iraq and Afghanistan Veterans Association, which has 
partnered with the Ad Council to do outreach. And we will hear from two 
marketing experts who know very well how essential it is for VA to 
understand the veterans it is trying to reach, and who are fully aware 
of the unique difficulties and pitfalls government agencies face when 
trying to use modern media to reach beneficiaries of government 
programs.
    We look forward to hearing as well from the VA about its plans to 
move forward. We understand that this is new to the VA, but we also 
know that VA must use all of the tools available to reach out to our 
veterans. Hopefully this hearing will be a catalyst for the VA and that 
in short order, consistent with VA doing this the right way, the VA 
will be moving forward and will be able to provide a detailed plan of 
action to Congress and the public.

                                 <F-dash>
             Prepared Statement of Hon. Ginny Brown-Waite,
                       Ranking Republican Member,
              Subcommittee on Oversight and Investigations

    Thank you Mr. Chairman,
    Mr. Chairman, getting the word out about veteran benefits to our 
Nation's heroes should be a high priority for the Department of 
Veterans Affairs. Printing brochures and handbooks in this day of the 
Internet and instant messaging is still an option, but 21st Century 
technology needs to be explored.
    On May 20, 2008, the House passed H.R. 3681, as amended, the 
Veterans Benefits Awareness Act of 2007, which would provide 
authorization to the Secretary of Veterans Affairs to advertise in the 
national media to promote awareness of benefits under laws administered 
by the Secretary by allowing the purchase of advertising in national 
media outlets for the purpose of promoting awareness of benefits under 
laws administered by the Secretary. This advertising would promote 
awareness of veterans programs provided by the Secretary, including but 
not limited to:

    <bullet>  homeless veterans;
    <bullet>  promotion of veteran owned small businesses;
    <bullet>  opportunities for employment in the Department of 
Veterans Affairs;
    <bullet>  opportunities for education, training;
    <bullet>  compensation, pension, vocational rehabilitation, and 
healthcare benefits;
    <bullet>  mental healthcare including the prevention of veteran 
suicide.

    This bill, authored by Congressman John Boozman, the Ranking Member 
of the Subcommittee on Economic Opportunity and Congresswoman Stephanie 
Herseth Sandlin, the Chair of that Subcommittee, was introduced due to 
concerns raised by officials at the Department of Veterans Affairs that 
they did not have proper authority to advertise their services to the 
general public in the national media. The bill is currently waiting to 
be taken up in the Senate.
    On June 4, 2008, you and I, following meetings of your personal 
staff with the VA, sent a letter requesting the Chairman and Ranking 
Member of the full Committee use the resources of the Committee to 
explore the potential efficacy of a broadcast public awareness campaign 
as a means of conducting outreach to veterans at risk for suicide.
    On June 16, 2008, Secretary Peake sent out a Memorandum to the 
Under Secretaries, Assistant Secretaries and other Key Officials at the 
Department, clarifying the ability of the VA to produce advertising in 
the national media. The memorandum provided that within two months 
after the delegation of authority, the Assistant Secretary for Public 
and Intergovernmental Affairs review the purchases of media advertising 
under this memorandum and provide a recommendation to the Secretary 
either a continuation of the existing delegation or a new policy.
    Mr. Chairman, I ask unanimous consent that a copy of the 
Secretary's Memorandum be included in the official record.
    Mr. Chairman, I am looking forward to hearing from the witnesses 
today on the implementation of the Secretary's Memorandum. It has been 
one month since the Memorandum has been issued, and it will be 
interesting to learn what steps the VA has taken to further inform our 
veterans about the services the VA provides.
    I yield back my time.

                                 <F-dash>
               Prepared Statement of Elizabeth O'Herrin,
           Washington, DC, (OIF Veteran and Former Wisconsin
                       Air National Guard Member)

    Good afternoon Chairman Mitchell and other representatives of this 
distinguished Subcommittee. I thank you for the privilege of sharing my 
perspective as a young Iraq war veteran who believes much can be done 
to reach out to our returning troops.
    When I returned home from my first deployment with the National 
Guard and attained veteran status, I was eligible for a slew of new 
benefits. Upon my arrival back in Wisconsin, I was given a crash course 
in my new Department of Veterans Affairs benefits and went home with a 
box load of pamphlets and brochures that I didn't have time to wrap my 
mind around because my head was spinning simply from the shock of going 
from the blazing heat of the Middle East to Wisconsin in January. After 
initial inspection, the box was promptly shoved in the back of a truck 
and hauled to my parents' house, where it has since collected dust 
under the guest bed. Three days after I arrived home, I was sitting in 
class at the University of Wisconsin. I barely made it in time, but I 
did.
    A short time after that, I wandered into my campus student veterans 
center, where I knew there would be other student veterans who could 
help me decipher my newly earned benefits. I knew the VA was not going 
to be of much help; I had already spent quite awhile on hold on the VA 
hotline, and experienced a barrage of information in a briefing 
immediately after returning home. I ended up not leaving the campus 
veterans center--I was so grateful for the immediate help they gave me 
in deciphering my benefits, I promptly asked for a job, ready to help 
fellow veterans weave through the maze of benefits when they arrived 
back into the civilian world. While there is certainly no shortage of 
information available to veterans coming home from Middle East, all too 
often I hear ``no one told me'', and often I feel that way myself. More 
effective ways of encouraging veterans to use the services available to 
them must be investigated.
    The Department of Veterans Affairs' reliance on traditional mailing 
campaigns to inform veterans of their earned benefits may work well for 
older, more sedentary veterans. However, for many recently discharged 
veterans, this form of communication is less than optimal. For example, 
in the past seven months, I have changed my address from my college 
apartment, to my parents' house, to my deployment address in Iraq, back 
to my parents address, to my current residence in Washington, D.C. 
Trust me when I say that there have been a few key pieces of mail that 
have slipped through the cracks--and the amount of address changes that 
I have experienced is not unusual among veterans trying to find a 
foothold in the civilian world after separating from active duty. While 
ultimately it is my responsibility to ensure that I officially change 
my address each time, one thing has remained constant throughout my 
hectic journey the past several months: my email address. My email was 
accessible throughout all of my moves, to include my time in Iraq. In 
the information age, electronic mail has become the preferred mode of 
communication such that regular mail has been given the connotation 
``snail mail''. E-mail is accessible everywhere, throughout the world, 
instantaneously.
    I understand that the VA does not request a current email address 
when individuals separate from active duty. I have never been asked for 
one. In my opinion, speaking from the perspective of a young veteran, I 
would have eagerly provided the VA my email address in the hopes that 
it would establish a direct line of communication between me and the 
VA. I know that the VA has undertaken a massive calling campaign to 
Operation Iraqi Freedom and Operation Enduring Freedom veterans, to 
ensure we are aware of healthcare benefits available to us. While I 
appreciate the VA's effort on this matter, I can also attest that 
calling me is actually not the best way to make sure I am informed. 
Personally, I do not retain information that is rattled off to me in a 
telemarketer fashion. Should this information be emailed to me, it 
provides a reference in my inbox that I can continually go back to. A 
brief phone conversation provides no such touchstone. Moreover, a phone 
call does not occur at the convenience of the recipient, rather it 
occurs at the will of the initiator. Email is checked at the 
convenience of the recipient, providing a more effective method of 
communication because the recipient is ready and willing to receive 
communications.
    While email communications would be a welcome addition to the VA's 
communication tactics, I do not believe this should replace hard copy 
mailings or personal calls. Rather, I believe email can be used to 
expand the VA's reach. There is certainly something to be said about 
the tangible nature of receiving something in my mailbox. Many 
companies and services ask individuals if they would appreciate 
communication via email as an option, and I believe I speak on behalf 
of the majority of young veterans when I say that I would check this 
box in hopes that I would remain conveniently informed about my 
benefits. Many banks and credit card companies now allow their 
customers to choose between e-statements and hard copy statements in 
the mail. This is an option the VA could provide veterans: allow us to 
pick electronic communication in lieu of hard copy mailings if we so 
desire. This choice could allow the VA to save a great deal of money 
that is currently being poured into printing and postage costs.
    As a recent college graduate and new entrant in the ``real world'', 
I can also attest that there is nothing more annoying than irrelevant 
emails clogging my inbox. If the VA were to overhaul their 
communications to implement an email update system, it would be crucial 
that these emails are tailored specifically to the individual receiving 
them. However, I believe that would be relatively easy to do, given the 
VA's massive data collection capacity and ability to identify 
categories within the broad group they provide services for. Should 
these tailored emails provide a clean, attractive hook, written in 
layman's terms, about a new benefit, a benefit change, or simply a 
benefit reminder with a link to more information, this could do a great 
deal to make the VA's services appear more approachable and appealing.
    Ideally, with the creation of a VA electronic mail enrollment form, 
veterans should be able to self-identify themselves for specific 
updates regarding disability, health, education benefits, etc.
    A veteran interested in attending college could enroll in education 
updates that ensure he or she is aware of the latest VA policies 
regarding the implementation of the new GI Bill. Then, upon graduation, 
that same veteran could opt out of education updates, thereby 
minimizing unwanted communication from the VA. The ability to create a 
"smart" electronic outreach system would give the VA exponentially more 
outreach power at a minimal cost.
    It seems to me that the general belief is that veterans know where 
to find services and benefits. This is true. Everyone knows the big 
concrete building is where the VA is, everyone knows the VA website, 
and everyone knows that if they have a problem, they are supposed to go 
to the VA. However, as the conflicts in Iraq and Afghanistan have 
continued, it has become apparent that this knowledge does not 
translate into veterans actually using the services provided to them. 
As we young veterans struggle with the stigmas of treatment for Post 
Traumatic Stress Disorder, as we struggle with the lack of knowledge 
about Traumatic Brain Injury, as we struggle with rising divorce, 
unemployment, and suicide rates, we must all ask ourselves what can be 
done to make help more accessible. It is no longer enough to simply 
inform, we must encourage.
    The Department of Defense, on the other hand, has gone to great 
lengths to ensure that they are quite encouraging to young individuals. 
The Department of Defense puts millions of dollars into glossy magazine 
spreads, television advertisements thumping with bass beats, catchy 
slogans that get revamped every few years in order to capture the ears 
of those about to graduate high school.
    Type in www.airforce.com and you are immediately given a swirling 
view of the Pentagon, accompanied by the majestic roar of fighter jets, 
as an ``advisor'' offers to chat with you during extended hours, even 
on Sundays, and you are tantalized by ``amazing videos of airmen in 
action.''
    With an all-volunteer force, the need to make the choice of 
enlisting in the military attractive is understandable. All of these 
bells and whistles go a long way in making the military more appealing. 
However, it is interesting that all of these fancy ways of reaching out 
to individuals dissipates after one actually signs on the dotted line. 
Where are all of the bells and whistles calling veterans to the 
services available to them? When their abilities were desired, there 
was no shortage of appealing methods of reaching out to them; it seems 
the appeal in attracting veterans diminishes once they have served 
their country honorably.
    Take, for example, the VA homepage. While full of information, the 
page is less than encouraging. Abounding are links filled with 
bureaucratic language, which everyone knows is tough to navigate even 
when you are schooled in the language of the law.
    The VA currently does not provide ``in a nutshell''; the VA 
currently does not provide much to stimulate interest in their 
services; the VA currently does not provide encouragement to seek out 
benefits. What you see is what you get, but this is no longer enough.
    An untold number of veterans are coming back from the current 
conflicts, suffering from conditions we proclaim we must do something 
about. The Department of Defense has deemed Post Traumatic Stress 
Disorder an important enough issue to launch PTSD public service 
announcements on the Armed Forces Network, but even these campaigns 
disappear once you depart from active duty. I do not know any military 
members who still watch AFN public service announcements after leaving 
active duty, and I am not aware of any television awareness campaigns 
in the civilian advertising world for conditions such as these, save 
for the campaigns currently being undertaken by veterans service 
organizations, like the public service announcement being launched by 
Iraq and Afghanistan Veterans of America.
    I commend the Department of Veterans Affairs for their efforts in 
reaching out to veterans, and I commend veterans service organizations 
for trying to fill in the gaps. It is not an easy job, by any means. I 
believe a few key changes within the Department of Veterans Affairs in 
their methods of outreach could go a long way in giving young veterans 
the tools they need to successfully transition back into civilian life 
after sacrificing so much for their country.

                                 <F-dash>
               Prepared Statement of Vanessa Williamson,
       Policy Director, Iraq and Afghanistan Veterans of America

    Mr. Chairman, Ranking Member and members of the committee, thank 
you for the opportunity to testify today on the need for VA media 
outreach.
    I am the Policy Director for and Afghanistan Veterans of America, 
the country's first and largest nonpartisan and veterans' group. As a 
civilian who has worked with this population for almost four years now, 
I've seen firsthand the tremendous gap between the VA and the veterans 
they are seeking to help. There are millions of veterans who qualify 
for VA benefits and services but do not use them, simply because they 
don't know the programs exist, they don't know they qualify, or they 
don't know how to apply. There are millions of veterans across the 
country who could be getting a college education, buying their own 
home, or getting quality healthcare when they are sick--but they are 
not, because they don't think they can afford it, and the VA hasn't 
told them otherwise.
    Because the VA doesn't advertise their services, veterans of all 
generations are missing out on benefits they have earned.
Health Care
    At least 1.8 million veterans lack health insurance.<SUP>i</SUP> 
About half of those veterans actually qualify for VA care, but have not 
sought it out. That's almost a million veterans without regular access 
to healthcare--a million veterans that the VA could be serving. For 
some of those vets, VA hospitals are too far away, or co-pays are too 
high to make VA care practical--but some are just not enrolled. These 
veterans, like the other 45 million uninsured Americans, are avoiding 
getting their health problems treated, or are relying on expensive 
emergency room care.
---------------------------------------------------------------------------
    \i\ Testimony of Stephanie J. Woolhandler, Harvard Medical School, 
based on data from the Census Bureau and the Department of Health and 
Human Services. House Veterans' Affairs Committee hearing, June 20, 
2007.
---------------------------------------------------------------------------
    We have a short window of opportunity, in the next few years, to 
ensure that and veterans do not join these 1.8 million uninsured 
veterans. Right now, less than half of the veterans who are eligible 
for VA healthcare have signed up. The rest, about half a million 
people, have five years to get in the door at the VA, or risk getting 
labeled ``Priority 8'' and losing access altogether. The VA needs to 
take steps now to reach these veterans, before it's too late.
    What makes this a particular shame is that VA healthcare is 
universally recognized to be some of the best care you can get in this 
country. The VA regularly outperforms many of America's best private 
hospitals. The American Legion calls the VA ``the healthcare model 
others in the healthcare field should emulate.'' <SUP>ii</SUP> Veterans 
of Foreign Wars, AMVETS, Disabled American Veterans, and Paralyzed 
Veterans of America, agree that VA healthcare is ``equivalent to, or 
better than, care in any private or public health-care system.'' 
<SUP>iii</SUP>
---------------------------------------------------------------------------
    \ii\ American Legion, ``A System Worth Saving,'' 2006.
    \iii\ FY2008 Independent Budget, pg. 35.
---------------------------------------------------------------------------
    A concerted effort by the VA to advertise their healthcare services 
could give an estimated 1\1/2\ million veterans access to this high-
quality healthcare.
Education
    Veterans also qualify for tens of thousands of dollars in education 
benefits. In fact, the new GI Bill that became law only a few weeks ago 
entitles veterans to free tuition up to the cost of the most expensive 
in-state public university. The new GI Bill also includes a living 
stipend, a book stipend, and a new program to encourage expensive 
private schools to offer scholarships to new veterans. This program 
will give hundreds of thousands of veterans the chance to build a 
brighter future for themselves and their families.
    But we know from history that millions of veterans do not take 
advantage of their GI Bill. In fact, under the old Montgomery GI Bill, 
``only 8 percent of veterans use their whole benefit and 30 percent of 
veterans don't use their GI Bill at all.'' <SUP>iv</SUP>
---------------------------------------------------------------------------
    \iv\ Elizabeth Farrell, ``GI Blues,'' The Chronicle of Higher 
Education, May 13, 2005.
---------------------------------------------------------------------------
    A VA advertising campaign would ensure that this generation of 
veterans takes full advantage of the historic educational opportunities 
the new GI Bill affords.
Housing
    Military towns are ground zero for the subprime mortgage crisis; 
foreclosure rates in military towns are increasing at four times the 
national average.<SUP>v</SUP> While troops and veterans were being 
bombarded with advertising for subprime mortgages with hidden fees, 
teaser rates, and penalties for prepaying, they heard no advertising at 
all regarding safe and reliable VA home loans. As the marketing of 
subprime mortgages skyrocketed, the VA Home Loan Program has been 
underutilized. The number of new VA loans has declined every year 
between 2004 and 2007, and ``in 2006, at the peak of U.S. subprime 
lending, the number of VA loans fell to barely a third of the level two 
years earlier.''
---------------------------------------------------------------------------
    \v\ Kathleen M. Howley, ``Foreclosures in Military Towns Surge at 
Four Times Rate,'' Bloomberg News, May 27, 2008.
---------------------------------------------------------------------------
    This is especially unfortunate because veterans using the VA Home 
Loans program get a much safer mortgage, and the support of VA 
financial counseling if they need it. And VA-backed mortgages aren't 
going into foreclosure like subprime loans are. Even though 90 percent 
of current VA-backed home loans were given without no 
downpayment,<SUP>vi</SUP> the share of VA mortgages in foreclosure was 
only slightly higher than the share for ``prime borrowers,'' those with 
the highest credit scores.
---------------------------------------------------------------------------
    \vi\ VA Press Release, ``VA Reaching Out to Vets with Mortgage 
Problems,'' June 12, 2008.
---------------------------------------------------------------------------
    Part of the reason VA loans lost popularity is because soaring 
housing prices have made VA loans less relevant to many home buyers in 
expensive areas. But because the VA doesn't advertise, many troops and 
veterans who could have used a VA home loan are now suffering with a 
subprime mortgage, and are at risk of losing their homes altogether.
    As the mortgage crisis continues to unfold, the VA needs to do more 
to promote their excellent home loan program, and to encourage veterans 
facing housing problems to contact a VA financial counseling center.
IAVA and Ad Council
    With 1.7 million veterans coming home from and, we have to do a 
better job of informing veterans about their benefits. For this 
generation, the time is now for the VA to conduct a coordinated, 
national and local outreach campaign.
    Knowing that nonprofit advocacy organizations can often respond 
faster than the government, IAVA has partnered with the Ad Council to 
conduct a multiyear Public Service Announcement campaign to reduce the 
stigma surrounding mental healthcare and to ensure veterans seeking 
access to care and benefits, and particularly those who need treatment 
for their psychological injuries, get the support they need.
    We are proud to be partnering with Ad Council, who are responsible 
for many of the nation's most iconic PSA campaigns in history, 
including ``Only You Can Prevent Forest Fires,'' ``A Mind is a Terrible 
Thing to Waste,'' and ``Friends Don't Let Friends Drive Drunk.'' Thanks 
to their rigorous research model and focus-group testing process, the 
Ad Council has shown great success. For example, as a result of the Ad 
Council's Big Brother/Big Sister campaign, applications for Big 
Brothers Big Sisters mentors soared from 90,000 to 620,000 in nine 
months. ``Ready.gov,'' the Department of Homeland Security outreach 
site, received more than 18 million unique visitors within the first 
ten months of its campaign launch. We're hoping to see the same kind of 
success in our campaign.
    The IAVA-Ad Council PSAs will exist on television, radio, in print, 
outdoors and online, and will be rolling out in November of this year. 
Over the last two months, IAVA has met with the VA on three occasions 
to discuss our upcoming campaign, and we are hopeful that the VA will 
be able to prepare for any increase in demand our campaign generates. 
But our PSA campaign will in no way eliminate the need for the VA to 
plan its own outreach and advertising campaign. Only a concerted effort 
on the part of the VA will ensure that veterans finally have easy 
access to the many benefits the VA has to offer.
    Above all, our veterans earned these benefits defending our 
country, and should not have to fight for them when they come home. 
Thank you for your time.
    Respectfully submitted.

                                 <F-dash>
           Prepared Statement of Ronald C. Goodstein, Ph.D.,
     Associate Professor of Marketing, The Robert Emmett McDonough
       School of Business, Georgetown University, Washington, DC
        SW\2\C: Developing a Media Outreach Campaign that Works

    Good afternoon Mr. Chairman and Members of the Committee. My name 
is Dr. Ronald C. Goodstein and I am honored to be before you today. I 
am also humbled to be asked to employ my experience to help our 
veterans get the psychological help many so desperately need. It is 
encouraging to meet members of our government who are truly as 
concerned about our soldiers after their duty is over as they were when 
our soldiers were on the frontline. This Committee has been able to put 
aside political differences on the battles abroad in order to 
concentrate on the safety and mental wellbeing of our daughters and 
sons upon their return from those battles. Improving the lives of our 
veterans is an issue that serves no political agenda, but instead 
focuses upon those that need and deserve our gratitude and assistance. 
Thank you for making me part of that effort.
Background
    By way of background, I am an Associate Professor of Marketing at 
Georgetown University's McDonough School of Business here in 
Washington, DC and an invited professor to several executive programs 
throughout the world. My executive teaching and consulting are in the 
areas of ``voice of customer'' research and training, building and 
managing brand equity, ethnicity in marketing, and integrated marketing 
communications. My practical approach to these areas extends beyond the 
``ivory tower'' and has guided executives at some of the world's 
leading companies including HSBC, Microsoft, Dow Chemical, IBM, CR 
Bard, Kimberly Clark, Coca-Cola, and others. For the past 16 years, I 
have also been active in teaching and training directors of Head Start 
centers nationwide in the business skills they need to run their 
organizations in order to improve the lives of so many of our most 
challenged children and their families. Additionally, I serve as an 
expert witness in these domains and have done so locally with both 
Williams & Connolly and Gibson, Dunn, & Crutcher. In 2004, I was 
honored as Washington, DC's ``Hall of Fame Marketer'' by the Capital 
Area's American Marketing Association chapter.
    I hope that the above information attests to my ability to speak on 
the matters at hand, but this hearing is not about me, nor my 
background. This meeting is about supporting the letter sent by Rep. 
Mitchell and Rep. Brown-Waite that asks ``that the full Committee use 
its resources to explore the potential efficacy of a broadcast public 
awareness campaign as a means of conducting outreach to veterans at 
risk for suicide.''
A Call for Research
    In today's turbulent times, the success of the VA's mental wellness 
programs has become less assured than in any period in recent history. 
A number of factors account for this uncertainty including tight 
budgets, a charged political environment, media reports questioning the 
quality of VA care, the presence of medical professionals that 
specialize in the same types of issues that the VA covers, and the 
pervasiveness of abusive alternatives such as alcohol and drugs to 
counteract the mental anguish experienced by many of our vets. Though 
the VA is ``working hard'' to keep ahead of these factors, the idea of 
using media outreach to assist in these efforts is a prime example of 
``working smarter.'' The major contention of my testimony is that 
instead of focusing closely on its internal resources and services, the 
VA can guarantee an effective media outreach program only by focusing 
on the needs and desires of its constituents (e.g., veterans, their 
families, medical professionals, etc.). That is, while media outreach 
will prove an important tool for the VA, its usefulness and success 
depend upon the VA doing adequate due diligence to analyze and develop 
the right communication tools and messages to affect its target 
audiences.
    This issue is not new for public service organizations. It is not 
at all unusual for vital service organizations to utilize media 
outreach to improve their effectiveness. There are a host of public 
service announcements (hereafter, PSAs) that attest to this fact. What 
the VA needs, however, is not a PSA per se. Instead, the VA needs an 
integrated communications campaign that actually encourages its target 
markets to seek the help many so desperately need. This is more than 
just semantics. While many famous ad agencies have stepped forward to 
volunteer their services for PSAs, few of these firms do the research 
necessary to make these PSAs effective. For instance, the latest PSA 
for the Head Start organization features great creative commercials, 
great metaphors in print and television, and a billboard and signage 
campaign that is interesting and compelling. Many of the communications 
in this campaign feature very cute pictures of children holding up the 
faces they created with paper plates, pasta, and glue. Yet, at Head 
Start, children are not allowed to use food for artwork as the families 
Head Start serves often cannot afford to put food on their plates at 
all. So, here is an example of a lot of hard work and money wasted 
because it appears that the advertising firm did little to research the 
actual audience they wished to affect. I implore the VA to not repeat 
these shortcomings and to begin this media outreach effort by taking 
the time and effort to do the research required for success.
Customers in Focus
    The Veteran's Administration cannot simply tell its ``story'' to 
constituents hoping this will generate support and visits for mental 
health. Instead, the VA must determine what its constituents need and 
desire and how to best position the organization to satisfy these needs 
and desires. This does not mean that current VA offerings are 
necessarily missing the mark with their targeted audiences. For 
instance, The Annals of Internal Medicine published a study several 
years ago that compared veterans health facilities with commercial 
managed-care systems in their treatment of diabetes patients. In seven 
out of seven measures of quality, the VA provided better care 
(Washington Monthly 2005). Yet, the VA's mental health services and 
performance have not received the same positive reviews and in fact 
have often been under scrutiny in the past decade (e.g., NAMI Report 
2008). Before beginning a multi-million dollar communications campaign, 
it is imperative that the VA conduct research to determine the key 
criteria that will drive veterans to seek the services offered by the 
VA and to feel good in doing so.
    Customer perceptions drive markets and if it is these perceptions, 
whether true or false, that are leading vets in need to avoid the VA 
then until the root of these issues are discovered through research and 
the underlying causes are resolved, an ad campaign will do more to harm 
than to help the VA and those in need. The VA must undertake serious 
marketing research to better reach each of the target audiences, 
understand how to fulfill the potential customers' needs and desires, 
and enact strategies that evoke the desired behavior from each--whether 
a Marine who now feels too macho to come in for help or a family of an 
amputee unaware that the VA is there for them.
    To be successful, the VA must influence the behavior of a wide 
range of target audiences. These audiences go far beyond the veterans 
in need of care, and includes their families, medical professionals, 
peers and colleagues, the press, and the government among others. Thus, 
the VA has three major questions that must be addressed to develop a 
great media outreach campaign: (1) which constituencies should we 
target, (2) what behaviors need to be enacted by each targeted group, 
and (3) what tactics will best evoke/stimulate these behaviors.
SW\2\C
    Be cautioned that the marketing process from identifying target 
groups to developing the proper communications tactics to enact 
behavior is seldom accomplished in a single step. Constituents 
typically move through a continuum of responses before they are ready 
to perform the desired behavior. That is, it will take more than mere 
ad exposure to move these veterans from avoiding the VA to attending 
the therapy sessions that will help improve their lives. In general, 
marketing professionals address five steps that must be achieved to 
move constituents to the desired behavior.
    In the case of the VA, the first step is to build awareness that 
the VA offers the counseling services needed. While awareness is a 
necessity in reaching veterans, it is not sufficient to arouse the 
outcome sought. The second step is to develop comprehension, meaning 
that each constituency needs to understand what the VA does that is 
important from the veteran's perspective. Note that this is not a 
simple listing of what the VA believes are its good points, but instead 
educating the target in how the VA can help them to realize their own 
goals. The third step is image management, as the VA wants to develop a 
reputation of caring and partnering with each veteran in need. The 
fourth step is achieving a positive attitude. An attitude is simply a 
predisposition to behave in a certain way, based on how easy it is to 
do business with the VA. The objective is to build a positive attitude 
toward the VA so that behavioral change, the final step, occurs. To 
achieve any of these steps requires the VA to have deep insights into 
the people they wish to affect--their behaviors, motivations, 
influencers, attitudes and perceptions, knowledge, reading and viewing 
habits, etc.
    I am suggesting that there is much to be done before an 
advertisement is even developed by the VA. Simply stated, a PSA is not 
enough. The VA already has a campaign featuring Tom Hanks and while 
emotionally nice, the campaign does little to resolve the psychological 
needs of our veterans. It is great that there are advertisements to 
welcome our veterans home, which is the theme of this campaign. To get 
these veterans into counseling, often for a lifetime however, will 
require deeper insights than those used to develop the current PSA. In 
my teaching and consulting work, I use a simple formula to summarize 
this approach.

                    VA Success = f (SW<SUP>2</SUP>C)

    SW<SUP>2</SUP>C stands for the two questions that veterans will ask 
in response to the offers and communications delivered by the VA. So 
what? Who cares? The only answer to ``who cares'' is the veterans whose 
behavior the VA wishes to change, not the VA itself. And the answer to 
``so what'' is what does this particular target audience care about? 
That is, what will drives their behavior and opinions and how can the 
VA align itself with these in order to reach its goals? There are many 
specific research techniques and questions that get at these issues, 
and my goal today is not to get into the technical details of how to 
conduct the research. I am happy to offer my assistance to the VA, its 
selected agency, or to any other government organization that decides 
to take on such a worthwhile cause. My goal today though is to 
emphasize the clear, irrefutable necessity of first doing the requisite 
research before the first advertisement is developed and aired. The 
idea of advertising and media outreach is great, but without the proper 
inputs into the campaign, little should be expected of the outputs. 
There are literally lives at risk if the VA gets this wrong, and lives 
and families that will be positively changed if the VA gets this right.
Concluding Remarks
    In summary, the concepts and procedures reviewed in this report 
suggest a commonsense approach to understanding the VA's marketing 
environment and the research required to develop a successful media 
outreach campaign. The key premise in all of this is a central and in-
depth comprehension of the VA's constituencies, as the customer is the 
central figure in marketing not the organization that wishes to serve 
that customer. If the VA truly champions its customer, the veterans in 
need of psychological services, by understanding who they are, the 
influence of their family, peers and friends, their perceptions and 
attitudes toward getting help through the VA, why they so often turn to 
harmful solutions to resolve their pain, the messages that will affect 
them, and the media outlets that they use, then a successful media 
outreach program is possible. Without such research, the answer to 
``SW<SUP>2</SUP>C'' will be ``not me.'' In that case the VA, veterans 
they wish to serve, and public in general all lose out on what should 
be a great opportunity. I ask this Committee to continue its efforts in 
making sure that a media outreach program for the VA's mental wellness 
programs becomes a reality. Yet, I plead that this campaign be based on 
sound marketing research that extends beyond the walls of Congress and 
the Veterans Administration and into the minds, hearts, and homes of 
the veterans we wish to serve. Thank you.

[GRAPHIC] [TIFF OMITTED] T4000A.001


[GRAPHIC] [TIFF OMITTED] T4000A.002


[GRAPHIC] [TIFF OMITTED] T4000A.003


[GRAPHIC] [TIFF OMITTED] T4000A.004


[GRAPHIC] [TIFF OMITTED] T4000A.005


[GRAPHIC] [TIFF OMITTED] T4000A.006


[GRAPHIC] [TIFF OMITTED] T4000A.007


[GRAPHIC] [TIFF OMITTED] T4000A.008


[GRAPHIC] [TIFF OMITTED] T4000A.009


[GRAPHIC] [TIFF OMITTED] T4000A.010


[GRAPHIC] [TIFF OMITTED] T4000A.011


[GRAPHIC] [TIFF OMITTED] T4000A.012


[GRAPHIC] [TIFF OMITTED] T4000A.013


[GRAPHIC] [TIFF OMITTED] T4000A.014


                                 <F-dash>
             Prepared Statement of Sharyn M. Sutton, Ph.D.,
    Washington, DC. (Communication and Social Marketing Consultant)

    I would like to thank the Subcommittee on Oversight and 
Investigations for inviting me here today to share my social marketing 
experience and thoughts on outreach to our veterans. I have been 
working in the field of social marketing and communication for over 25 
years. I have designed and directed outreach programs within the 
Federal government (National Cancer Institute and USDA) and have served 
as a strategic planning consultant for a number of Federal programs 
(HHS, NHLBI, FDA, CMS, EPA, CDC, NHTSA), foundations, nonprofit and 
private sector organizations. I am not representing any organization 
today and my comments only reflect my views as a social marketing 
professional.
    In preparation for today, I reviewed written testimony from the 
hearing held before this Subcommittee on May 22nd ``Examining the 
Effectiveness of Veterans Benefits Administration Outreach Efforts.'' I 
would like to offer a social marketing perspective regarding outreach 
efforts by the Veterans Administration (VA) and address four areas of 
particular importance. These are:

    <bullet>  The critical need for a strategic outreach plan and its 
essential components;
    <bullet>  The synergistic role of national and state/local 
outreach;
    <bullet>  The importance of audience research to build the plan, 
strengthen the VA brand, develop a message strategy and evaluate 
outcomes; and
    <bullet>  Opportunities and Challenges for outreach within the 
Federal government.

    Sadly, it is common for government agencies to offer benefits and 
services to the public, but then place the burden on citizens to access 
them. Many agencies fear the consequences of effective outreach in that 
it is believed the citizen response would overwhelm operations and 
resources. Without accepted standards and approaches to outreach, that 
hold agencies accountable for outcomes not just outputs, it is easy to 
reward poor performance.
    The testimony previously offered by the AD Council and presented 
here today provides an insightful explanation of key marketing and 
outreach principles. It is important to add that these principles must 
be executed within the context of a research-based strategic plan that 
includes a commitment of sufficient resources and ongoing evaluation to 
ensure success. A strategic plan establishes the goals and measurable 
objectives that will be achieved through outreach. The following 
briefly describes elements of a strategic plan designed to serve as a 
foundation for effective outreach.
Strategic Plan
    The strategic goals are based upon an understanding of the VA's 
mission. An analysis of current operations and their effectiveness will 
help establish priorities for program activities, audience segments and 
measurable outreach objectives. The plan should include research-based 
profiles of key audience segments for the development of outreach 
strategies. It should address any branding issues related to the VA's 
image. Outreach strategies would define specific audience actions, 
rewards for the actions, openings for reaching the audience and desired 
brand/image characteristics. The plan would also lay out the integrated 
media outreach tactics--using multiple channels and materials to 
deliver campaign messages. These should include print and broadcast 
public service advertising and paid advertising, media relations, 
electronic and interactive media, outdoor and point-of-purchase 
promotions, along with direct and interpersonal communication. 
Potential community interventions and outreach support for state and 
local activities should also be addressed. Finally, the plan would 
commit the requisite funding to achieve sufficient ``media'' weight to 
ensure messages break through to the target audience and specify 
evaluation metrics for campaign feedback.
    One cannot overemphasize the importance of a strategic plan using 
integrated marketing communication with measurable objectives. It is 
all too easy to create attractive campaigns that appear to fulfill an 
outreach mandate without delivering the desired outcomes. Marketing-
based outreach is not merely education or information dissemination. 
Social scientists and educators have acknowledged for decades that 
information dissemination does not lead to the needed behavior change 
to achieve program objectives. There is a huge gap between 
understanding a message and changing behavior. ``I know'' does not 
automatically translate into ``I do.''
    Much has also been written about the effectiveness of public 
service advertising, and one thing is clear, in most cases stand-alone 
advertising is insufficient for successful outreach. Everett Rogers, 
renowned for his theory on Diffusions of Innovation, described 
conditions related to a successful outreach campaign. He noted that it 
was ``. . . financially well endowed, intensive, and multi-phased over 
a long time period; it used formative evaluation, utilized the mass 
media efficiently to initiate interpersonal communication, was very 
daring and original in its concepts and implementation, and was run by 
a very prestigious organization; and skilled people from different 
disciplines were integrated in a team effort. Unfortunately, all these 
conditions are seldom found in other media campaigns.''
    Outreach efforts in partnership with the Ad Council can provide the 
VA access to high quality creative and recognition among media outlets. 
As air time and space devoted to public service has continued to 
dwindle the nature of a public service campaign has dramatically 
changed. As the previous Ad Council testimony pointed out, there is a 
need to move away from a primary focus on advertising to an integrated 
marketing effort with a strong Web presence and community engagement. 
In today's technological world, a database of one's clients is 
invaluable and offers many ways for direct and personalized 
communication. Dollar for dollar, the efficiency and effectiveness of 
mass media pales in comparison to direct and tailored communication. 
Previous testimony from the National Association of State Directors of 
Veterans Affairs calls for a mechanism for sharing information on 
veterans for outreach purpose. I believe this recommendation should be 
strongly considered.
Role of State and Local Outreach
    Understanding the roles for outreach at the Federal, State and 
local levels can increase the effectiveness and efficiency of a 
national campaign. The fact that most states have the capability and 
infrastructure to leverage outreach to veterans is a significant 
advantage and outreach grants to state Veterans' agencies [S. 1314] 
have been suggested as a means for improving communication with 
veterans. However, like their private sector counterparts at the State 
and local level, most government and nonprofit entities do not have the 
marketing skill set necessary to create compelling outreach campaigns. 
Even with additional funding it is cost prohibitive and inefficient to 
make the necessary investment to develop outreach campaigns within each 
state. It is also difficult to access available marketing talent in the 
private sector that possesses an understanding of the special needs 
within the government and nonprofit sectors.
    On the positive side, there is technology that allows national and 
international organizations to develop multi-faceted outreach campaigns 
at the ``corporate level'' that can be tailored and localized to meet 
specific community needs. Companies like Intel and Bank of America and 
nonprofits such as AARP bring highly skilled marketing and 
communication professionals to the task of message and materials 
development. These new technological resources then allow for 
development of electronic material templates and the sharing of these 
``templates'' in a manner that protects the national ``brand'' and 
ensures key messages are accurately delivered. Partners at the state 
and local level then use these templates to tailor campaign materials 
(e.g., brochures, posters, websites, ads, exhibits, promotional items) 
with local information, photos, graphics and logos to share their 
organization's contact information, explain state benefits, describe 
local resources, and highlight local events, meeting times, and so 
forth.
    Focusing State and local resources on the ground through community 
engagement and interpersonal communication offers an invaluable 
presence that cannot be accomplished through national level outreach. 
It is recommended that State outreach grants be directed toward 
campaign dissemination at the local level and not message and materials 
development. That is, messages and materials would be developed at a 
national level and provided to State and local partners in electronic 
format that can be customized for local use and dissemination. In this 
way, the dollars necessary to invest in campaign development are 
available for essential audience research, message creation, creative 
execution, materials testing and production. Input from state entities 
can be leveraged across states and the VA can avoid the cost and 
inefficiencies resulting from the creation of individual state 
campaigns. This would maximize the incredible contribution that can 
only be made at the local level through interpersonal contact such as 
that provided by the state Veterans agencies and County Veteran Service 
Officers.
    It is reasonable to assume that a successful outreach campaign 
should cost a fraction of what the Department of Defense spends on 
recruitment but only if an ongoing integrated marketing effort 
implemented at the national, State and local level is pursued.
Audience Research
    Like strategic planning, the role of audience research cannot be 
over-emphasized. It is critical to understand the perceptions and 
attitudes of different segments of veterans and their families for 
planning and developing messages. This requires appropriately designed 
audience research. Likewise, materials testing must be an integral part 
of any communication effort. What can appear to be a simple letter from 
the VA is an integrated part of outreach and brand building and should 
be tested among audience members to ensure clarity, believability and 
desired tone.
    Audience research must be used to clarify how to position outreach 
on benefits among other VA efforts such as:

    <bullet>  Veterans Assistance at Discharge (VADS) program (where 
the VA generates the mailing of a ``Welcome Home Package'' that 
includes a letter from the Secretary, VA Pamphlet 21-00-1, A Summary of 
VA Benefits, and VA Form 21-0501, Veterans Benefits Timetable with a 
follow-up letter mailed six months later)
    <bullet>  Benefits Delivery at Discharge (BDD) program and
    <bullet>  Coming Home to Work (an early outreach effort with 
special emphasis on OEF/OIF service members at military treatment 
facilities who are pending medical separation from active duty).

    These initiatives may be seen as very distinct programs from the 
agency's point-of-view, but to the consumer they may be an amalgamation 
of the ``VA''.
    There is a growing awareness of the need to seek greater consumer 
input into government outreach campaigns. However, it is often 
difficult to conduct such studies for outreach purposes, particularly 
quantitative studies. In the private sector, commercial research 
entities conduct large surveys annually on media habits, lifestyles, 
and buying behaviors that can be purchased and analyzed by other 
companies for marketing and communication purposes. Unfortunately these 
surveys rarely include the questions important to government programs. 
On the other hand, government sponsored surveys tend not to collect 
data on essential marketing variables, like media habits, that would be 
helpful to marketing initiatives.
    In addition it should be noted that there are also ways to connect 
VA data to commercial marketing databases (e.g., geo-demographic 
audience data) that would be useful for planning and implementing 
targeted outreach to veterans. There is an opportunity to greatly 
increase the impact of outreach efforts by taking advantage of the 
available data the government has on its veterans and their potential 
benefits. Legislative support to connect public and private sector 
databases to better serve veterans while maintaining privacy would 
assist VA access to this cost effective process.
    The requirement that the VA conduct a survey (P.L. 108-454) 
(including statistically valid samples of: (1) World War II veterans; 
(2) Korean conflict era veterans; (3) Vietnam era veterans; (4) Persian 
Gulf era veterans; (5) active-duty service members; (6) National Guard 
and Reserve members activated under title 10, United States Code; and, 
(7) family members and survivors) is a significant opportunity to 
obtain missing audience information on veteran segments to build 
targeted and compelling outreach.
    The VA is being directed to use the results of the survey to 
determine the collective awareness of benefits and services available 
to those groups under laws administered by the Secretary. However, 
``awareness'' is not the most appropriate marker to build or evaluate 
outreach success. Research has shown that ``increasing audience 
awareness'' alone rarely leads to desired behavior change. Effective 
outreach must purposely promote very specific actions and useful survey 
research should develop measures for assessing these actions. It would 
be better for legislation to require the agency to specify program 
objectives and audience behaviors linked to achieving those objectives 
(e.g., contacting the VA). Research measures that assess and track 
these variables across audience segments should then be required and 
used for accountability rather than audience awareness.
    In the private sector, survey research is critical for targeting 
audiences, identifying appropriate communication channels and most 
importantly evaluating the effectiveness of campaigns. Time sensitive 
tracking research can be done inexpensively and should be a routine 
part of any outreach campaign. The Institute of Medicine's report on 
Speaking of Health strongly recommended that the OMB provide to health 
agencies a blanket approval for audience surveys necessary to design 
and evaluate public outreach. Hopefully the VA could be granted similar 
authority.
    To ensure audience input into outreach campaigns Congress should 
not only ask agencies for evidence that it was conducted, but should 
also ask agencies to demonstrate how the agency responded to audience 
wants and needs and results from materials testing. This would address 
agencies under time constraints that conduct consumer research after 
the fact only to ensure Congressional research mandates are met.
    Finally, while the private and public sectors reflect two different 
environments, research and experience have long shown that marketing is 
a discipline that can make significant contributions to both. The basic 
marketing fundamentals do not change:

    <bullet>  The audience must be the driving focus as determined by 
audience research;
    <bullet>  A ``marketing exchange'' must be achieved where the 
benefit to the audience exceeds the cost;
    <bullet>  Identifiable behaviors or outcomes are targeted for 
change; and
    <bullet>  A brand must be established with audience appeal and 
relevance.

Opportunities and Challenges for Government Outreach
    Marketing and audience research can improve the VA's ability to 
look at the world from the perspective of a veteran and his or her 
family. By translating that perspective into outreach that is strategic 
and effective, the VA can support the veteran's ability to act in his 
or her own best interest.
    Marketing like other disciplines (e.g., accounting, program 
management) supports programmatic needs--increasing the likelihood that 
an agency's goals and outreach objectives are met. But marketing does 
not specify what an agency's goals should be. That requires a research 
base along with policy formulation. Once policymakers specify ``what'' 
should happen, marketing can then determine how to achieve it. 
Marketing does not offer a ``magic bullet'' for outreach--however its 
systematic, research-based application will provide strategies more 
likely to move such efforts toward successfully accomplishing agency 
goals.
    It should be recognized that there are cultural differences between 
private sector marketing organizations and government programs that 
must be addressed. The requirements of marketing to generate messages 
that are attention-getting, relevant to the audience and promote 
specific actions that promise appealing but potentially subjective 
rewards--can be troubling within any government context. Philosophical 
differences become apparent exist over the government's role when the 
marketing process is put into place. Should government try to influence 
behavior? To what degree should the government target audience segments 
versus ``serving everyone?'' Does a government agency have a 
responsibility to ensure that messages reach and are understood by the 
audience? There is also confusion over the need for outreach messages 
to reproduce statutory or expert language or be consistent across 
audience segments regardless of differing audience needs.
    The clearance process can also be a major hurdle to a consumer-
oriented outreach program. In the private sector the requirements for 
approval focus on objective audience research measures of clarity, 
appeal, believability and relevance. As public messages move through 
the government clearance process, approval is more likely to depend 
upon internal criteria, such as appeal to the experts; a belief 
regarding what is or isn't allowed; political risk and desire for the 
agency to receive credit.
    While it is not expected that the public sector will change its 
culture in the near term, one way successful endeavors balance the need 
to appeal to the audience within government realities is through 
public/private partnerships. Involving outside organizations from 
different sectors around a social issue allows strengths and weakness 
of each to come into play. There are a number of examples of how 
differences in types of resources, skill sets, constituencies and 
perspectives have complemented each other building stronger and more 
lasting outreach efforts.
Conclusions
    So it is not a question of whether or not the marketing discipline 
can improve the effectiveness of government programs and outreach. One 
needs only to look at its application and effects in political 
campaigns and military recruitment. Given its demonstrated 
contribution, the more important question is how to better integrate 
the marketing discipline within a government context. We must continue 
to ensure that the needs and wants of the audience are heard even when 
they appear to be in conflict with today's political considerations.
    In summary, the development of a strategic plan that specifies 
outreach objectives within a broader programmatic frame is essential. 
The plan must be based upon research and analysis of the role outreach 
should play to achieve policy goals. Primary audience research, 
particularly survey research, is a prerequisite for effective outreach 
and must be readily available for campaign managers. Government 
databases and other resources also should be tapped for planning and 
implementation of VA's outreach efforts. It is recommended that the 
outreach campaign be designed at a national level, and the valuable 
contribution of the State and local infrastructure, including Veterans 
agencies and County Veteran Service Officers, be leveraged through 
outreach grants focused on implementation and dissemination, 
particularly around community engagement and interpersonal 
communication. This could be greatly enhanced through technology 
allowing easy local customization and the sharing of information on 
veterans with local agencies. Government outreach must then be assessed 
based upon outcomes and not output. This requires permission and 
support for ongoing quantitative survey research designed to be timely 
and cost efficient. Finally, public/private partnerships are strongly 
encouraged to complement the government's outreach efforts.

                                 <F-dash>
            Prepared Statement of Hon. Lisette M. Mondello,
      Assistant Secretary, Office of Public and Intergovernmental
              Affairs, U.S. Department of Veterans Affairs
    Chairman Mitchell, Ranking Member Brown-Waite and Members of the 
Subcommittee, I am pleased to be here today to participate in this 
hearing regarding media outreach to veterans. Thank you for giving me 
the opportunity to talk about an important tool the VA has been given. 
With the recent decision to allow VA to use advertising resources we 
are excited to share with you our ideas on using this tool to modernize 
and reshape our efforts to more effectively reach and educate veterans 
and their families about VA's benefits and services.
    Our mission at the Department of Veterans Affairs is clear: to do 
all within our authority and ability to help service members readjust 
successfully into civilian society after their military experience ends 
and to make sure they know the VA is there to provide healthcare, 
benefits and other services they have earned. I am confident that our 
use of this tool will allow us to dramatically modernize our techniques 
to reach out to veterans and their families in more creative and 
effective ways.
    It is particularly exciting to me that we are now free to look at 
additional options to reach and connect with these veterans.
    I would be remiss if I did not thank you, Chairman Mitchell, and 
Congressman Boozman for your role invigorating this effort, as your 
interest led to a reexamination of the scope of VA's authorities in 
this area. On June 16, less than a month ago, Secretary Peake lifted 
the restriction on advertising. I am an enthusiastic supporter of this 
effort on the advertising policy and my office gladly accepts this new 
responsibility for coordinating the Department's media advertising 
efforts.
    Secretary Peake's decision requires the Under Secretaries to 
coordinate with the Assistant Secretary for Public and 
Intergovernmental Affairs about outreach, media plans, education, and 
awareness campaigns and initiatives, and for me to recommend to him 
further steps to improve our ability to reach veterans and their 
families. In the few weeks since the change, there have already been a 
number of meetings with the Veterans Health, Benefits and National 
Cemetery Administrations and staff offices working together to move 
this effort forward. Mr. Chairman, we are committed to keeping the 
Committee informed as we turn these plans into concrete actions. This 
partnership with Congress and your support is critical to the success 
of this effort.
    One of the key parts of the rescission allows the Under Secretaries 
to purchase advertising in media outlets for the purpose of promoting 
awareness of benefits and services, after coordinating with the 
Department's public affairs office.
    The decision allows us to use proven modern advertising techniques 
that will appeal to veterans of all ages and their family members. It 
will give VA, with its variety and diversity of services and benefits, 
the ability to provide the right message through the right medium to 
reach veterans. Traditional advertising venues such as broadcast and 
print are available to us. But we are also looking at social marketing 
and Internet based non-traditional media such as YouTube, MySpace and 
Facebook, as well as podcasting. All can be considered and evaluated in 
our outreach effort to veterans and their families.
    Our goal is to reach veterans who have just returned from Iraq and 
Afghanistan as well those who served in World War II, Korea, the Cold 
war, Vietnam, and the Persian Gulf War--we want to reach all veterans 
of all eras of service with the messages of greatest concern to them 
through the medium that is most effective. Facebook might work best for 
veterans returning from Iraq and Afghanistan, but not be the best to 
reach our Vietnam era veterans.
    On November 14, 2006 VA submitted to Congress a 5-year strategic 
plan (2006-2011) which included an outreach component. At that time we 
were still precluded from using paid outreach advertising. It is now 
being revised to include a robust advertising approach. It is our goal 
to provide the updated outreach strategic plan to you in December 2008 
when we submit our scheduled Report of Outreach Activities to the 
Congress. We also aim to include this fiscal year's accomplishments of 
our current business plan objectives which will be linked to the 
strategic plan goals in the report.
    Of course with every opportunity there are new challenges. Moving 
forward we intend to develop a sound approach, with steps that will 
include:

    <bullet>  An internal committee including key legal, budget, and 
communications staff who have already begun meeting to move forward and 
take action quickly.
    <bullet>  We are developing a request for proposals to contract for 
outside professional advertising expertise to assist VA.
    <bullet>  We are reviewing the budget to determine the available 
funding for the remainder of Fiscal Year `08 and Fiscal Year `09.
    <bullet>  We are engaged with the National Ad Council and the Iraq 
and Afghanistan Veterans of America to coordinate on their fall 
national public service campaign on mental health for returning 
veterans.

    One concrete action already moving is a Veterans Health 
Administration pilot outreach campaign on suicide prevention. I will 
share with you today some of the examples we will be using in our 
initial effort to reach out to veterans in the Washington, DC area. The 
Department will assess its effectiveness, and if successful, it will be 
exported to other areas in the country.
    As a Department we recognize that we must seek outside professional 
outreach and advertising assistance. While I am proud of our public 
affairs professionals, we simply don't have the advertising expertise 
within the Department at this time.
    Our goal is to make veterans and their families aware of the 
benefits and services VA has to offer. Looking to the future, we intend 
to use whatever outreach and advertising techniques appear to work. We 
will keep an open mind and aggressively seek to find the best 
advertising technology available.
    As we move forward we will work closely with you, and welcome your 
suggestions. We believe the opportunities are vast and we will pursue 
this new approach with vigor. On this issue, I believe we are in total 
agreement--we must move quickly with sound expertise based upon the 
strategic needs of this Department using a variety of options to reach 
out and positively connect with veterans and their families.
    Mr. Chairman, this concludes my formal statement. We will continue 
to seek your counsel as we move forward. I am pleased to respond to any 
questions you or the subcommittee members may have.

                                 <F-dash>
                   THE SECRETARY OF VETERANS AFFAIRS
                               WASHINGTON
                             June 16, 2008

MEMORANDUM FOR UNDER SECRETARIES, ASSISTANT SECRETARIES, AND OTHER KEY 
        OFFICIALS
Subject: Rescission of VA Advertising Policy and Delegation of 
        Authority for the Purchase of Media Advertising
    1.  RESCISSION: Effective immediately, paragraph 4e(1) of MP-1, 
Part 1, chapter 4 (Advertising) is rescinded.

    2.  DELEGATION: After coordinating with the Assistant Secretary for 
Public and Intergovernmental Affairs, Under Secretaries may purchase 
advertising in media outlets for the purpose of promoting awareness of 
benefits provided under laws administered by their organizations and 
for personnel recruitment, and for certain loan guarantee activities.

    3.  RESTRICTIONS: Under Secretaries may not approve the purchase of 
media advertising that is:

        a.  Aggrandizing or unduly emphasizing the importance of VA, 
        some part of VA, or VA officials;
        b.  Propaganda (e.g., advocating a particular viewpoint); or
        c.  Purely partisan in nature.

    4.  REVIEW REQUIRED: Not later than two months prior to the 
rescission of this delegation, the Assistant Secretary for Public and 
Intergovernmental Affairs shall review the purchases of media 
advertising under this delegation and recommend to the Secretary either 
a continuation of the existing delegation or a new policy.

    5.  REDELEGATION AND EFFECTIVE DATE: Under Secretaries may not 
delegate this authority. This delegation is effective upon signature by 
the Secretary and is rescinded two years from the effective date.

                                               James B. Peake, M.D.
                               __________
      
                                                         Memorandum
Department of Veterans Affairs

    Date:
              June 12, 2008

    From:
              General Counsel (02)

    Subj:
               Decision Document--Rescission of VA Policy Limiting Use 
of Paid Advertising

    Thru:
              Deputy Secretary (001)

    To:
              Secretary (00)

    1.  Introduction:

    <bullet>  Current VA policy, contained in paragraph 4.e(1) of MP-1, 
Part l, chapter 4, prohibits all paid advertising except for personnel 
recruitment and certain loan guaranty activities.
    <bullet>  This policy is more restrictive than statutory 
prohibitions on advertising which appear in each of VA's appropriations 
acts, and prohibit the use of appropriated funds for publicity or 
propaganda purposes not authorized by the Congress.
    <bullet>  House Bill 3681 (the Veterans Benefits Awareness Act) 
that passed the House on May 20, 2008, would create a new Title 38 
provision to allow paid advertising in national media outlets to 
project awareness of veterans benefits.

    2.  Issues:

    <bullet>  Should the Secretary rescind the current VA policy, and 
replace it with one that allows the Undersecretaries to purchase 
advertising in media outlets for the purpose of promoting awareness of 
benefits provided under laws administered by their organizations, for 
personnel recruitment, and for certain loan guarantee activities?
    <bullet>  Should VA support the Veterans Benefits Awareness Act, 
given that the Secretary already has the authorities provided by the 
proposed statute?

    3.  Background:

    <bullet>  Current VA policy, contained in paragraph 4.e(1) of MP-1, 
Part I, chapter 4, prohibits all paid advertising except for personnel 
recruitment and certain loan guaranty activities. It provides:

             The use of paid advertising by the VA will be limited to 
        specific activities for which a specific designation of budget 
        authority exists. In general, and in the absence of additional 
        legislative authority, the Agency engages in the use of paid 
        media advertising for personnel recruitment and for certain 
        loan guaranty activities. Elements of the VA are otherwise 
        prohibited from purchasing advertising time or space to promote 
        VA benefits and services, to present ``institutional'' 
        messages, to publicize Agency events or activities, to 
        participate in buying congratulatory advertising, or from 
        expending funds for other forms of advertising enterprise.

    <bullet>  This policy was originally issued by the Administrator of 
the former Veterans Administration.
    <bullet>  The Secretary may approve its revision or rescission. If 
the Secretary rescinds this policy, the statutory prohibition on the 
use of VA appropriations for publicity or propaganda purposes would 
remain in effect. This is a perpetual prohibition included in VA's 
annual appropriation acts. The currently operative provision of that 
prohibition is in VA's appropriation law at section 501 of Public Law 
110-161. It provides:

             No part of any appropriation contained in this Act shall 
        be used for publicity or propaganda purposes not authorized by 
        the Congress.

    <bullet>  While decisions of the Comptroller General have held that 
similar language prohibits self promotional advertising by agencies 
(``self-aggrandizement or puffery''). It does not prohibit the use of 
paid advertisements nor legitimate informational activities, such as 
outreach and recruitment.
    <bullet>  A House bill, H.H.3681, the ``Veterans Benefits Awareness 
Act of 2008,'' would authorize the Secretary to promote awareness of VA 
benefits by purchasing media advertising. It would create a new section 
in title 38, United States Code, which would provide:

             The Secretary may purchase advertising in national media 
        outlets for the purpose of promoting awareness of benefits 
        under laws administered by the Secretary, including promoting 
        awareness of assistance provided by the Secretary, including 
        assistance for programs to assist homeless veterans, to promote 
        veteran-owned small businesses, and to provide opportunities 
        for employment in the Department of Veterans Affairs and for 
        education, training, compensation, pension, vocational 
        rehabilitation, and healthcare benefits, and mental healthcare 
        (including the prevention of suicide among veterans).

    <bullet>  This provision would not give the Secretary any authority 
that he does not already have. Because the bill uses the words ``may 
purchase,'' the Secretary could either continue the existing VA policy 
that prohibits paid media advertising to promote VA benefits or he 
could make an exception to the policy and permit paid media advertising 
for this purpose. This bill has passed the House and been referred to 
the Senate.

    4.  Analysis:

    <bullet>  VA requires authority to promote its benefits programs 
and advertise recruiting opportunities through the commercial media.
    <bullet>  Current policy is more restrictive than statutory 
provisions concerning advertising, and prevents paid promotion of VA 
benefits and services.
    <bullet>  Current statutory prohibitions on advertising appear only 
in yearly appropriations acts, and prohibit self aggrandizement and 
puffery concerning the agency.
    <bullet>  Rescission of the current policy would allow VA pay for 
all advertising that does not aggrandize the agency or make overblown 
claims about it.
    <bullet>  Rescission of the current policy without guidance to take 
its place may allow unconstrained advertising that is potentially 
harmful to the agency and/or wasteful of taxpayer money. Simultaneously 
with the rescission of the current policy, the Secretary should 
announce new policy guidance for eventual memorialization in VA 
Directive and Handbook.
    <bullet>  Current paid advertising policy is reserved to the 
Secretary, without delegation of authority to the Assistant Secretary 
for Public and Intergovernmental Affairs or the Undersecretaries. 
Arguably, as the Undersecretaries are responsible for the provision of 
VA benefits and outreach concerning those benefits, they should have 
authority to promote and, explain them, as approved by the Assistant 
Secretary for Public and Intergovernmental Affairs to ensure 
consistency of form and message.
    <bullet>  The Veterans Benefits Awareness Act of 2008 would 
memorialize the Secretary's authority to purchase paid advertising, and 
would allow for complete clarity concerning the source and nature of 
advertising policy. It would memorialize what is now an inherent 
authority of the Secretary.

    5.  Recommendations:

    A.  Rescind paragraph 4.e(1) of MP-1, Part I, chapter 4.
    B.  Issue the attached Memorandum to Undersecretaries and Key 
Officials.
    C.  Task the Assistant Secretary for Public and Intergovernmental 
Affairs to incorporate the substance of the attached Memorandum into an 
appropriate VA Directive and Handbook.
    D.  Support the Veterans Benefits Awareness Act, as appropriate.

    6.  Decision:

APPROVE/DISAPPROVE:

_________________

James B. Peake, M.D.
Secretary
Department of Veterans Affairs
                                                           ________

                                                    Date           

Comments:

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                     Washington, DC
                                                      July 18, 2008

Honorable Lisette M. Mondello
Assistant Secretary
Public and Intergovernmental Affairs
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Assistant Secretary Mondello:

    Thank you for testifying before the House Veterans' Affairs 
Committee's Subcommittee on Oversight and Investigations on the subject 
of ``Media Outreach to Veterans.'' I have been interested to hear about 
how the VA plans to implement the new television media outreach 
authority since Secretary Peake called to tell me about it on June 18, 
2008.
    I am pleased the VA has acted so quickly to begin the pilot public 
awareness campaign to publicize the VA's suicide prevention hotline. I 
believe this is a significant step in the right direction and I am 
grateful for all the hard work that has gone into it. Due to time 
constraints at the hearing, I was not able to ask all the questions I 
have about the campaign.
    Please provide answers to following questions by August 27, 2008, 
to Todd Chambers, Executive Assistant to the Subcommittee on Oversight 
and Investigations.

    1.  In your testimony you indicated that the VA had not tested the 
effectiveness of new print ads and public service announcement via 
polling, focus groups or other standard advertising research 
techniques. You also indicated that the VA had not hired an advertising 
agency to create the ads, and that the VA has no advertising experts on 
staff. How soon can we expect the VA to conduct the necessary market 
research to ensure that the message the VA uses will have the maximum 
effectiveness?

    2.  In the absence of the kind of market research referenced in 
question 1 above, can you please describe the process by which the VA 
selected the message that contained in the pilot public awareness 
campaign?

    3.  Please provide all the costs associated with this pilot public 
awareness campaign, and identify where, within VA's budget, such 
funding is being accessed.

    4.  How much television time is the VA purchasing for the new 
public service announcement featuring Gary Sinise? On what broadcast 
and/or cable channels will the public service announcement air?

    5.  Please describe the criteria that will be used and the process 
by which the VA will assess the effectiveness of this pilot public 
awareness campaign, and make any changes before expanding the campaign 
to additional markets.

    6.  Does the VA need any additional resources or legal authority to 
complete work on this pilot campaign or any expansion of the campaign 
to additional markets? If so, please describe.

    Additionally, I am confused about the ``Veterans Press 1'' 
component of VA's suicide prevention hotline. I am concerned that an 
automated answering system may not be the safest way to deal with 
callers in potentially life-threatening situations. In addition, if 
this is a hotline set up to serve veterans, why would veterans need to 
press a button to establish that they are veterans? If they are being 
separated out from other callers, I am confused as to who those other 
callers would be. If you could please explain this to me I would be 
grateful.
    Again, I want to thank you and your colleagues for all your hard 
work on this. If there is anything I can do to help, please do not 
hesitate to contact me or my staff. I am eager to help the VA make the 
final public awareness campaign as effective as possible.
    We request you provide responses to the Subcommittee no later than 
close of business on June 11, 2008. If you have any questions 
concerning these questions, please contact Subcommittee on Oversight 
and Investigations Staff Director, Geoffrey Bestor, Esq., at (202) 225-
3569 or the Subcommittee Republican Staff Director, Arthur Wu, at (202) 
225-3527.

            Sincerely,

                                                  Harry E. Mitchell
                                                           Chairman

                                 <F-dash>

                                U.S. Department of Veterans Affairs
                                                     Washington, DC
                                                 September 16, 2008
Honorable Harry E. Mitchell
Chairman
Subcommittee on Oversight and Investigations
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Mr. Chairman,

    First let me say that I was only recently made aware of your letter 
of July 18, 2008, and I am at a loss to explain why it appears nowhere 
in our tracking systems prior to August 28, 2008. Please accept my 
sincerest apologies for the tardiness of these replies to your original 
letter. As I said during my testimony before your Subcommittee, VA's 
new authority to implement a paid advertising component to our on-going 
outreach and awareness efforts has no greater champion within the 
Department than I. Your leadership in assisting us to make the most of 
this opportunity is greatly appreciated.
    Upon review of your questions contained in the July 18th letter, 
most would be appropriately answered by the Veterans Health 
Administration (VHA) Office of Communications since they are the office 
that actually created and executed this pilot and have the on-going 
authority over it. I have asked them to provide the answers to your 
specific questions regarding the suicide prevention awareness pilot. 
Again, we at the Department of Veterans Affairs (VA) are excited about 
the opportunity to work with Congress to make our awareness campaigns 
aimed at veterans as effective as possible. VA is grateful for your 
continued commitment to this partnership.
    Below, please find responses to your questions. I would also 
acknowledge the subject matter experts in VHA who provided the 
information on the suicide prevention outreach campaign:

    Question 1: In your testimony you indicated that the VA had not 
tested the effectiveness of new print ads and public service 
announcement via polling, focus groups or other standard advertising 
research techniques. You also indicated that the VA had not hired an 
advertising agency to create the ads, and that the VA has no 
advertising experts on staff. How soon can we expect the VA to conduct 
the necessary market research to ensure that the message the VA uses 
will have the maximum effectiveness?

    Response: The suicide prevention awareness campaign was created 
internally in the VHA Office of Communications. This process 
highlighted in my mind the possibility that future public service and 
awareness campaigns-especially with a paid advertising component-would 
benefit greatly from the expertise of marketing and advertising 
professionals.
    During my testimony to the Subcommittee in July, I testified that 
among the several challenges that we had to meet was to develop a 
request for proposals (RFP) to contract for professional advertising 
expertise. We found that going through an RFP would be a very lengthy 
process. VA's contracting office has actually identified a more 
efficient way to conduct the market research needed to appropriately 
identify the marketing, focus group research, social networking and 
creative advertising expertise we will need at the VA. I am currently 
in the process of interviewing many companies and I will keep you up-
to-date as we approach the decisions.
    At the hearing, many Members and witnesses stressed the importance 
of focus groups to identify the best ways to reach our veterans with 
information about VA's benefits and services. VHA noted that, at the 
local level, some of our medical facilities already use focus groups to 
improve outreach to OEF/OIF veterans and to identify opportunities to 
enhance overall customer service.

    Question 2: In the absence of the kind of market research 
referenced in question 1 above, can you please describe the process by 
which the VA selected the message that contained in the pilot public 
awareness campaign?

    Response: I have asked VHA communications project team who did the 
message development to describe the process they used:

    At the time we began the process to select the message for our 
initial Suicide Prevention Pilot awareness campaign in the District of 
Columbia metropolitan area, the Department was still subject to the 
paid advertising restriction. Thus, not having available professional 
marketing expertise within the Department, we decided a reasonable 
alternative approach would be to have the project team attend a Message 
Development Workshop. The Workshop was conducted by a communications 
company contracted by the Department of Health and Human Services, 
Substance Abuse and Mental Health Services Administration (SAMHSA) in 
Rockville, Maryland. That workshop helped to prepare the team with the 
basic skills training necessary to develop a message focused on 
veterans age, gender, and life experience considerations. Subsequently, 
the team arranged for, conducted and analyzed the results of several 
feedback sessions from randomly selected veterans, suicide prevention 
coordinators, and VA employees who were veterans. During the feedback 
session we asked those groups to comment on the poster draft image and 
copy. We received candid feedback including positive, negative 
responses and recommendation for revisions. We further considered the 
recommendations and guidance we received from the Committee during 
Congressman Mitchell's hearing of July 2008, and, as a result we 
arrived at the final message. Incidentally, we continue to seek and 
plan to make use of currently received feedback.

    Question 3: Please provide all the costs associated with this pilot 
public awareness campaign, and identify where, within VA's budget, such 
funding is being accessed.

    Response: The approximate cost for production and distribution 
including artwork, printing and the leased space for advertisement was 
$115,000. This funding is from the VHA mental health budget.

    Questions 4: How much television time is the VA purchasing for the 
new public service announcement featuring Gary Sinise? On what 
broadcast and/or cable channels will the public service announcement 
air?

    Response: VA is not purchasing advertising time for airing the Gary 
Sinise video. It is distributed as a public service announcement. Based 
on our successful experience last year with another public service 
announcement campaign entitled HealthierUS Veterans, we expect to 
realize 2,000 or more airings of the Sinise PSA. HealthierUS Veterans 
featured football legend John Elway. That PSA was aired over 2,000 
times on TV commercial stations across the USA to an estimated, 
audience of nearly 8 million viewers. The only cost involved in airing 
that PSA the distribution company fee. We estimate that the 
distribution company fee for 12 months distribution of the Sinise PSA 
will be $36,000.
    As in the HealthierUSVet PSA, the Sinise suicide awareness spot 
will be SIGMAcoded. This will allow electronic monitoring of each 
single broadcast by station, date and air time. The Sinise PSA airings 
and viewers are expected to be even greater based on beta research 
which revealed a positive, enthusiastic feedback received from those 
who previewed the spot.
    Currently, the Sinise spot is posted on several VA websites. These 
include the main VA home page www.va.gov, the VA suicide prevention 
website www.mentalhealth.va.gov and other sites. Some veterans service 
organizations have posted the public service announcement on their 
website--the Vietnam Veterans of America at www.vva.org and the 
Disabled American Veterans at www.dav.org.
    Finally, we are considering paid advertising to show the Sinise PSA 
in movie theaters across the Nation.

    Question 5: Please describe the criteria that will be used and the 
process by which the VA will assess the effectiveness of this pilot 
public awareness campaign, and make any changes before expanding the 
campaign to additional markets.

    Response: The criteria used to assess the effectiveness of the 
Washington Metro pilot public awareness campaign are the rate of 
increase in daily calls to the suicide prevention hotline and the rate 
of increase of veterans seeking consultation by the suicide prevention 
coordinators at the Washington, DC VA Medical Center. In addition, an 
intangible and admittedly soft yet significant variable is the level of 
community awareness of the suicide prevention hotline number. While the 
numbers of calls into the hotline number did increase from area codes 
in the DC metropolitan area, we cannot necessarily attribute the 
increase to the advertising campaign per se since the media coverage of 
the campaign may have had a significant impact on the results.
    The criteria used to determine in which additional markets VA would 
consider expanding the Washington, DC Metro campaign include: rates of 
completed suicide, rates of attempted suicide, ratios of suicide to the 
size of the veteran population, the numbers of calls to the hotline, 
the availability of metro and bus systems as an advertising medium.

    Additional Question: Additionally. I am confused about the 
``Veterans Press 1'' component of VA's suicide prevention hotline. I am 
concerned that an automated answering system may not be the safest way 
to deal with callers in potentially life-threatening situations. In 
addition, if this is a hotline set up to serve veterans, why would 
veterans need to press a button to establish that they are veterans? If 
they are being separated out from other callers, I am confused as to 
who those other callers would be. If you could please explain this to 
me I would be grateful.

    Response: The suicide prevention hotline is a national hotline 
provided by the U.S. government to all citizens. The veterans' suicide 
hotline was integrated with the existing national system in order to be 
joined to a system with a proven track record and to avoid confusion 
from the use of different phone numbers for different populations 
(e.g., veterans vs. non-veterans). Since implementation, it has become 
renowned as an efficient and effective system. It is an easy to 
remember number and even with the `Veterans Press l' component it has 
received much praise as an exceptional system for veterans as well as 
their friends and family.
    Again, Mr. Chairman, both my office and the VHA Office of 
Communications, are available to discuss the suicide prevention 
awareness campaign with you or your staff. In addition, I will keep you 
and your staff apprised of the progress we are making in establishing a 
framework for execution of the new advertising authority as we conduct 
future VA outreach and awareness campaigns.
    Ensuring that our veterans receive information about the benefits 
and services available to them in the most effective manner possible is 
a key priority for me and I appreciate the support and attention you 
and your staff have given this matter. Please again; accept my 
apologies with regard to the lateness of this reply. We are continuing 
to determine how it could have happened and are working to ensure that 
it does not happen again.

            Most sincerely,

                                                Lisette M. Mondello
                                 Assistant Secretary for Public and
                                          Intergovernmental Affairs

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                     Washington, DC
                                                      July 22, 2008

The Honorable James B. Peake
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Secretary Peake:

    On Wednesday, July 15, 2008, the Honorable Lisette M. Mondello, 
Assistant Secretary for Public and Intergovernmental Affairs testified 
before the House Committee on Veterans' Affairs Subcommittee on 
Oversight and Investigations on Media Outreach to Veterans. As a 
followup to the hearing, I request the enclosed questions be answered 
in written form for the record by close of business, 5 p.m. on Friday, 
August 22, 2008.
    If you have any questions, please contact Art Wu, Republican Staff 
Director for the Subcommittee on Oversight and Investigations, at 202-
225-3527.

            Sincerely,

                                                  Ginny Brown-Waite
                                          Ranking Republican Member

                                 ______
                                 
                        Questions for the Record
                    The Honorable Ginny Brown-Waite
                       Ranking Republican Member
               Subcommittee on Oversight & Investigations
                  House Committee on Veterans' Affairs
                             July 15, 2008
                       Media Outreach to Veterans
    Question 1: What kind of IT security would be needed at VA in order 
to put in place in order to create an e-mail distribution list for the 
new generation of veterans raised in the information age?

    Response: Depending upon the functionality, the current Department 
of Veterans Affairs (VA) electronic mail (e-mail) system has both the 
security and the capability to create e-mail distribution lists to 
reach veterans through that medium. If the information is being sent to 
a wide audience of users, there may be better methods of getting that 
information out to the veterans than using e-mail distribution lists, 
such as list servers or specialized Web pages. The type of information 
and security requirements will dictate what methods or modes of 
communication would be best to use.
    The e-mail addresses of veterans could be secured in the same ways 
that other sensitive data are. There are a number of ways already 
available with VA's e-mail system to ensure that a message to a veteran 
shows only that recipient's e-mail address, as well as any other 
personal information, and not those of any other veteran to whom VA 
might send the same message. Some of the common methods are blind 
copies, forms that can be created for users to use, list servers and 
third-party tools available in the marketplace. The size of the lists, 
attachments and type of information will dictate what tools are used. 
Access to the distribution lists and list servers can also be 
restricted so only those that need the information have access. Access 
can also be restricted to a select group of staff that use the 
distribution list to send information so veterans are not receiving 
spam messages. The methods used and level of security would be based on 
the requirements of the information.
    Regarding the security of the content of the messages, VA's e-mail 
system currently employs both encryption and rights management. 
Encryption protects content during transmission by translating the data 
into a form that is unintelligible without a deciphering mechanism. 
Rights management controls the subsequent actions that the recipient or 
any other future user can take (e.g. whether they can forward it, print 
it or only view it). This same or similar functionality could be 
extended to e-mail communication with the veteran population; however, 
it would be highly recommended that sensitive data not be sent in e-
mail. That is not only a best practice in VA but a standard industry 
practice. For example, financial institutions and online retailers do 
not send sensitive data regarding transactions in e-mail. Instead, the 
e-mail contains some acknowledgement of a transaction using non-
sensitive information and provides a link to a secure location where 
the customer can log in and obtain any desired details.

    Question 2: How will the VA protect veterans' e-mail addresses and 
other personal information?

    Response: The e-mail addresses and any related personal information 
of veterans could be maintained and secured in VA in the same ways that 
other sensitive data is. There are a number of ways already available 
with VA's e-mail system to ensure a message to a veteran shows only 
that recipient's e-mail address and not those of other veterans to whom 
VA might send the same message. Some of the methods are native to the 
e-mail system and some depend on third party tools.
    It is highly recommended that sensitive information not be sent in 
e-mail. Instead, there are ways to craft e-mail notifications to 
veterans using non-sensitive information and refer them to a secure 
location where they can log in (such as the My HealtheVet portal) 
should they want to view related information of a sensitive nature. In 
addition, VA already has efforts underway and some capability to use 
identifiers other than the veteran's Social Security number. VA also 
has the capability to monitor outgoing e-mail for anything containing 
data that looks to be of a sensitive nature and either alert 
administrators of the transmission or block it altogether.
    If it is necessary to send sensitive information in e-mail then the 
encryption and rights management technologies could be extended to 
ensure protection of content in e-mails to the veterans. The capability 
to force encryption on messages of certain types before they leave the 
secure VA enclave could be employed.
    VA has a comprehensive approach for securing veterans' personal 
information as covered by VA Directive and Handbook 6500--Information 
Security Program.

    Question 3: Are you working with Assistant Secretary Howard to put 
these measures in place and set up an e-mail, distribution system that 
would allow VA to better communicate with younger veterans?

    Response: Much of the functionality and security being alluded to 
already exists within VA and could be extended to the veteran 
population. I am not aware of any specific efforts to create 
distribution lists to communicate with particular segments of the 
veteran population. This would be a business function that the 
Assistant Secretary for Information Technology, Mr. Howard, can and 
would facilitate.

    Question 4: How frequently would information be communicated on to 
the veteran using this form of communications?

    Response: Until our plan has been fully developed with the 
assistance of outside experts it is impossible to provide you a 
complete answer. My intent would be to purchase the most effective 
system of communication to make veterans aware of benefits and services 
available to them. We will strive to provide useful information 
employing the most effective technology available.

    Question 5: Has VA investigated the use of Facebook, MySpace and 
YouTube to disseminate information about the VA product lines? Are 
there legal implications or prohibitions?

    Response: VA is working as part of an interagency approach working 
to enable Federal representation of citizen information on social media 
Web sites. In mid-June 2008, VA hosted a meeting of 18 Federal agencies 
to discuss how to break through legal and technical ramifications to 
allow us to provide public content on private Web sites. We are 
actively working to resolve remaining policy issues in conjunction with 
the interagency Federal Web Managers Council and General Counsel. VA's 
representative has been appointed cochair of the Social Media 
Subcommittee.
    VA is planning an initial social media presence on four of the most 
popular networking Web sites: Facebook, MySpace, YouTube, and Second 
Life. While legal issues are being worked out, VA and other agencies 
are working together to secure Federal Government agreements with these 
social media Web sites. Preliminary discussions are taking place with 
Google (YouTube), Facebook, Second Life (Linden Labs) and MySpace. 
Their responses have been encouraging as they appear willing to address 
the liability issues. During this process, VA has created mockups of 
our future presence on the major social media Web sites. Our plan is to 
be ready for an immediate launch when the policy issues are finalized.

    Question 6: What do you think is the most effective way to 
communicate with each generation of veterans separated out by era of 
service?

    Response: I recognize that VA has a critical mission to communicate 
with all veterans of all eras of service. It appears that the method of 
delivering information to such a diverse group requires VA to use 
different means to the different groups to communicate effectively. All 
options are under consideration and I am hopeful that in a few months 
our outreach plan, based upon the strategic needs of veterans, will 
provide more clarity to the best approaches to reach all veterans.

    Question 7: Do you believe it may be beneficial for the Secretary 
to institute an online blog where a discussion, in layman's terms, on 
what benefits are available and how to go about obtaining them?

    Response: An on-going interactive ``blog'' from the Secretary would 
not be practical to monitor and maintain. The best source of 
information on benefits is at the level closest to the veteran where 
real contact can be made and benefits and care will likely be 
administered. The Web offers many ways to get information to veterans 
and we will work to fully use the Web. VA has been a Federal leader in 
using plain language in all aspects of its work, particularly in 
outreach to veterans.

    Question 8: When should the Committee expect to receive the 
Department's strategic outreach plan?

    Response: The Department's Strategic Plan for Outreach is to be 
submitted to Congress December 2008. That plan is being revised now 
that the paid advertising outreach ban has been lifted. The December 
2008 report will be linked to the strategic goals of VA.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                     Washington, DC
                                                      July 22, 2008

Ms. Elizabeth O'Herrin
300 Massachusetts Avenue, NW
Apartment #220
Washington, DC 20001

Dear Ms. O'Herrin:

    On Wednesday, July 15, 2008, you testified before the House 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations on Media Outreach to Veterans. As a followup to the 
hearing, I request the enclosed questions be answered in written form 
for the record by close of business, 5 p.m. on Friday, August 22, 2008.
    If you have any questions, please contact Art Wu, Republican Staff 
Director for the Subcommittee on Oversight and Investigations, at 202-
225-3527.

            Sincerely,

                                                  Ginny Brown-Waite
                                          Ranking Republican Member

                                 ______
                                 
                        Questions for the Record
                    The Honorable Ginny Brown-Waite
                       Ranking Republican Member
               Subcommittee on Oversight & Investigations
                  House Committee on Veterans' Affairs
                             July 15, 2008
                       Media Outreach to Veterans

    Question 1: Would online products such as YouTube be considered a 
useful vehicle to get the message out about VA?

    Response: While I think it is crucial that the VA implement new 
strategies to get the word out about their services and benefits, I 
also believe that it is easier for grassroots, innovative organizations 
to harness up and coming online sites. For example: many grassroots 
organizations have found that Facebook is a great way to connect with 
college students--they all use Facebook. However, it is not widely 
accepted for established, powerful bureaucracies to create Facebook 
groups and use Facebook messages to get the word out. It almost 
cheapens them, or makes the organization look like it is trying too 
hard. Some elected officials have moved to Facebook as a way of 
stimulating support, and have done so relatively successfully.
    While I believe it would be more beneficial for the VA to use 
strategies that I outline in the following paragraphs, I also believe 
that implementing methods such as blogs and video clips online would be 
attractive. Veterans relate to other veterans--perhaps the VA could 
capitalize on personal stories of success (place them in a portal or on 
a video blog) to motivate other veterans to seek out services available 
to them.

    Question 2: Please list your 1-2-3 ways VA could immediately engage 
today's returning service members and veterans to inform and encourage 
them to seek benefits from the Department of Veterans Affairs:

    Response: Revamp the VA website. When a veteran goes to the VA 
website, he or she has to weave through piles of information before 
coming across relevant pieces. The search function is not especially 
efficient, and there the veteran must sift through massive quantities 
of information. This could be improved by allowing the veteran to enter 
who he or she is, and utilizing a ``smart'' website that tailors the 
information to the veteran.
    The DoD has embraced the concept of portals, which compile 
information tailored specifically to the veteran in addition to 
highlighting subject matter the DoD deems important enough, condensed 
into one convenient location with the help of hyperlinks. I understand 
the concept has been employed by the VA concerning health benefits: My 
HealtheVet is seemingly a step into the information age. This scope 
could be broadened to include education benefits and other information.
    As part of a three-year study entitled ``Combat Stress Intervention 
Program'', the DoD has implemented a pilot program in rural 
Pennsylvania called VOICE. This program has kiosks established where 
veterans can seek out information without having to wait on hold for 
hours on end to get the answers to questions about benefits or 
services. This program can also be fleshed out as a web based, so that 
veterans would not have to go to the kiosks to discover information 
about their benefits, but could access them anywhere they have 
Internet. Despite the fact that the younger generation of Global War on 
Terror (GWOT) veterans are technologically savvy, the kiosks are 
available for rural National Guard members who may not have easy access 
to Internet at home. This pilot project and partnership between Rite-
Solutions and the Department of Defense was born out of the recognition 
that returning National Guard members and reservists were not able to 
easily access information about services available to them.
    Collect veterans' email addresses. Many veterans, upon discharge, 
receive days and days worth of briefings pertaining to their new life 
as a civilian. Quite simply, it's information overload. We must ensure 
these veterans can opt in to receiving information at a later point in 
time, when they are settled into their new lives as civilians and are 
considering their options for the future.
    As I stated in my testimony, veterans often migrate after exiting 
the service, but nearly all of us keep our email addresses current. 
Concise, pertinent emails from the VA about benefits and reminders for 
deadlines are a much needed addition to VA outreach services. I believe 
providing the servicemember or veteran with the opportunity to provide 
their email address for future communication would prove very 
valuable--but it is also necessary to ensure these messages are 
relevant to the recipient. Tailoring the email to the veteran, or to 
what the veteran wishes to receive, is crucial.
    Public Announcements. The fact that PTSD is a stigma charged 
diagnosis is preventing many military members and veterans from seeking 
help. There is also an element of distrust of the VA, especially among 
National Guard and reservists who do not want their permanent records 
tainted by seeking counsel. I believe there should be massive Public 
Service Announcement campaigns launched about combat stress, and 
incorporate the confidential services that Vet Centers provide for 
these ``silent sufferers''. The Vet Centers are a crucial service, and 
many veterans are not aware of the Vet Centers history or the 
confidential services they provide. With more and more Vet Centers 
being established by the VA, awareness campaigns should be implemented 
to ensure full advantage of their services are being taken.
                                                 Elizabeth O'Herrin
                                                 Executive Director
                                        Student Veterans of America

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                     Washington, DC
                                                      July 22, 2008

Ms. Vanessa Williamson
Policy Director
Iraq and Afghanistan Veterans of America
308 Massachusetts Avenue, NE
Washington, DC 20002

Dear Ms. Williamson,

    On Wednesday, July 15, 2008, you testified before the House 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations on Media Outreach to Veterans. As a followup to the 
hearing, I request the enclosed questions be answered in written form 
for the record by close of business, 5 p.m. on Friday, August 22, 2008.
    If you have any questions, please contact Art Wu, Republican Staff 
Director for the Subcommittee on Oversight and Investigations, at 202-
225-3527.

            Sincerely,
                                                  Ginny Brown-Waite
                                          Ranking Republican Member

GBW:dc

Enc.

                                 ______
                                 
          Honorable Ginny Brown-Waite Questions for the Record
              Subcommittee on Oversight and Investigations
            Oversight Hearing on Media Outreach to Veterans
                             July 15, 2008
                          Vanessa Williamson,

       Policy Director, Iraq and Afghanistan Veterans of America
    Question 1: Is the IAVA and Ad Council integration of campaigns 
intended to target only veterans with mental health issues, or will it 
incorporate other benefit and healthcare programs such as the GI Bill, 
housing programs, and reinforcing the need for veterans (to visit] 
their local Vet Center?

    Response: The IAVA/Ad Council campaign is aimed at two audiences: 
returning veterans and their families. The primary purpose of the 
campaign is to de-stigmatize the psychological challenges many veterans 
face when they return home, and to encourage these veterans to seek 
assistance. Many veterans seek only mental healthcare with a family 
member or friend's encouragement. So in addition to advertisements 
targeting veterans, unique advertisements targeting military families 
will urge veterans' loved ones to speak to them about any issues they 
might be having, and to encourage the veteran to seek treatment if 
necessary.
    The ads will direct veterans and their families to specially 
tailored websites that will link them with the best resources 
nationwide. While the focus of the resource list will be on mental 
health, resources for other key veterans' benefits (such as home loans 
or GI Bill benefits) will also be included.

    Question 2: Is IAVA working in conjunction with the VA in 
developing the Ad Council campaigns so that the information provided is 
accurate and compatible?

    Response: It is crucial that veterans seeking benefits or care from 
the VA can get the right access via the IAVA/Ad Council campaign 
website, IAVA has met with the VA on three occasions to alert them to 
the development of our campaign, and to talk about potential VA 
resources to be included on the IAVA/Ad Council campaign website. These 
potential resources include quick links to care and benefits 
applications and connections to the Vet Centers.
    However, all creative development, messaging components and funding 
of the campaign have been produced independent of the VA.

    Question 3: How will the Ad Council and IAVA track veterans who 
respond to the campaign?

    Response: The campaign websites will have a detailed sign-up 
procedure, to allow veterans and the families to receive followup 
information and to allow Ad Council and IAVA to track the veterans 
participating in the campaign. In addition, Ad Council tracks a number 
of metrics for all of their campaigns, including number of website 
visits and changes in consumer attitude.

    Question 4: Will the Ad Council campaign also refer veterans to 
VA's existing website, or will the Ad Council create a new website that 
will link to the VA?

    Response: The IAVA/Ad Council campaign will refer veterans to an 
innovative new website, with appropriate links to DoD and VA resources 
in our resources section.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                     Washington, DC
                                                      July 22, 2008

Ronald C. Goodstein, Ph.D.
Associate Professor of Marketing
Robert Emmett McDonald School of Business
Georgetown University
310 Old North
Washington, DC 20057

Dear Dr. Goodstein,

    On Wednesday, July 15, 2008, you testified before the House 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations on Media Outreach to Veterans. As a followup to the 
hearing, I request the enclosed questions be answered in written form 
for the record by close of business, 5 p.m. on Friday, August 22, 2008.
    If you have any questions, please contact Art Wu, Republican Staff 
Director for the Subcommittee on Oversight and Investigations, at 202-
225-3527.

            Sincerely,
                                                  Ginny Brown-Waite
                                          Ranking Republican Member

GBW:dc
Enc.

                               __________
                      Honorable Ginny Brown-Waite
                        Questions for the Record
               Subcommittee on Oversight & Investigations
            Oversight Hearing on Media Outreach to Veterans
                             July 15, 2008
     Ronald C. Goodstein, Ph.D., Associate Professor of Marketing,
             The Robert Emmett McDonough School of Business
                         Georgetown University

    Question: In the case of PTSD, VA has been the leader in treatment 
since the Vietnam War. With the current spate of negative press VA has 
been receiving recently, what remedy do you suggest to improve 
veterans' perception of VA's ability to effectively and compassionately 
treat the veteran?
    Response: The issue of dealing with the spate of negative press is 
a serious one for VA. I wish that there were a clear answer to dealing 
with this issue. My response to this important question, however, is 
again (similar to my original testimony) that until the VA does its 
research, there is no clear cut method for affecting the perceptions of 
the VA. The last thing the VA wants to do is to develop a campaign they 
believe will improve their image if, in fact, the image is due to real 
shortcomings as opposed simply to perceptions. If this happens to be 
the case, then the campaign will create what is known in the 
advertising field as a ``boomerang effect.'' This means that a campaign 
that was developed to positively affect the perceptions of a company or 
its products ends up having the exact opposite effect and leads to 
worse attitudes and images of the brand. Such an effect happens most 
often when companies attempt to fool customers by making claims that 
are simply not believable. I am not suggesting that this is the case 
for the VA, but only that clarifying the facts is vital before actions 
are taken.
    The following excerpt from my earlier testimony is appropriate 
here. ``Customer perceptions drive markets and if it is these 
perceptions, whether true or false, that are leading vets in need to 
avoid the VA then until the root of these issues are discovered through 
research and the underlying causes are resolved, an ad campaign will do 
more to harm than to help the VA and those in need. The VA must 
undertake serious marketing research to better reach each of the target 
audiences, understand how to fulfill the potential customers' needs and 
desires, and enact strategies that evoke the desired behavior from each 
. . .''
    If you recall from our panel earlier this year, the VA developed an 
ad campaign in the DC area to affect veterans' desires to seek help 
through the VA. The campaign was based only on the VA's and its ad 
agency's hunches and ideas, as opposed to real data collected from the 
targeted group. That campaign was judged to be completely ineffective 
by the veteran on our panel and I have yet to hear news of it having a 
positive outcome subsequently. The VA has the right idea to engage in 
outreach programs, but those efforts cannot be successful until they 
conduct primary research on the audience(s) they wish to affect.
    So, research is the correct action at this point to deal with the 
negative image. To again quote from my earlier testimony, ``The major 
contention of my testimony is that instead of focusing closely on its 
internal resources and services, the VA can guarantee an effective 
media outreach program only by focusing on the needs and desires of its 
constituents (e.g., veterans, their families, medical professionals, 
etc.). That is, while media outreach will prove an important tool for 
the VA, its usefulness and success depend upon the VA doing adequate 
due diligence to analyze and develop the right communication tools and 
messages to affect its target audiences.''
    The followup question posed above is another example of a scenario 
where primary research is required before beginning outreach. As I said 
during my testimony and again afterward, I would be happy to work with 
the VA to develop and conduct the proper research to address these 
important issues. I would not, however, feel comfortable being asked to 
review any advertising or other outreach to assess its effectiveness 
without such research. To do so would be irresponsible of me and the 
VA--the only responsible solution to these issues (both the question 
posed here and the general outreach program discussed earlier) is to 
get the research started as soon as possible and to allocate some of 
the outreach funds toward finding out what is really needed instead of 
the continual guessing.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                     Washington, DC
                                                      July 22, 2008

Sharyn M. Sutton, Ph.D.
4216 Mathewson Drive, NW
Washington, DC 20011

Dear Dr. Sutton,

    On Wednesday, July 15, 2008, you testified before the House 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations on Media Outreach to Veterans. As a followup to the 
hearing, I request the enclosed questions be answered in written form 
for the record by close of business, 5 p.m. on Friday, August 22, 2008.
    If you have any questions, please contact Art Wu, Republican Staff 
Director for the Subcommittee on Oversight and Investigations, at 202-
225-3527.

            Sincerely,
                                                  Ginny Brown-Waite
                                          Ranking Republican Member

            GBW:dc

            Enc.

                                 ______
                                 
                      Honorable Ginny Brown-Waite
                        Questions for the Record
               Subcommittee on Oversight & Investigations
            Oversight Hearing on Media Outreach to Veterans
                             July 15, 2008
                Sharyn M. Sutton, Ph.D., Washington, DC
               Communication and Social Marketing Expert

    This letter is in response to questions I received related to my 
testimony before the House Committee on Veteran's Affairs Subcommittee 
on Oversight and Investigations on Media Outreach to Veterans. I offer 
my apologies to the Subcommittee for the delay in my responses. I was 
on travel when the original request was sent and have since started a 
new position that has required my full attention. I hope that my 
comments may still be useful to your efforts.

    Question 1: Please elaborate on methods to connect VA data to 
commercial marketing databases, such as geographic audience data.

    Response: There are a number of companies that license or provide 
subscriptions to access consumer data (e.g., Claritas). In this case, 
the address of a veteran would link that veteran to a profile that has 
been shown to be characteristic of the veteran. The profile contains 
previously collected data on attitudes, media habits, purchase 
patterns, lifestyle, and so on. These data can then provide a more 
detailed understanding of the veteran and how to reach them. Companies 
can often link the marketing data using addresses without violating 
confidentiality of the person. If the VA has addresses or e-mail 
addresses, use of direct marketing could be done without this step 
however. The important research that was not conducted for the 
campaigns shown during the hearing related to audience research 
(concept and message development as well as message testing). Geo-
demographic data is more useful when one does not have access to the 
targeted population as does the VA. Audience research is pre-requisite 
for effective outreach.

    Question 2: What are the missing veteran population segments under 
current outreach efforts by VA?

    Response: Since the VA knows the make-up of the veteran population, 
any segment that is under-represented compared to the existing 
population is being missed--either through outreach or services that do 
not meet their needs. A critical point made at the hearing was the need 
to do research on the population of existing veterans, and not limit 
studies (as was proposed) to those already in contact and engaging with 
the VA program.

    Question 3: What best practices are utilized in the corporate 
sector that the VA should evaluate when preparing their marketing 
strategy and implementing their plan on media outreach to veterans?

    Response: There are best practices for marketing strategy and 
implementation that are standard and accepted in both the corporate and 
government/non-profit sectors. These include strategic planning, 
segmentation, targeting, audience research, message development and 
tracking. There are also many ways to conduct a communication campaign 
other than public service announcements that have been shown to have 
little effect since their airing over broadcast is no longer mandated 
by the FCC.

    Question 4: Should VA include in its evaluation a feasibility study 
of outreach to younger veterans that would include the use of an email 
database, as well as other new information technologies?

    Response: No. It is not necessary to spend the time or money on 
feasibility studies especially when working with email databases and 
other new technologies since these systems tend to have feedback 
mechanisms built into them. It is better to test actual outreach 
activities in the field and track their effect, than it is to waste 
resources conducting feasibility studies. These process measures will 
allow one to determine if the approach is feasible. Altering and then 
comparing different messaging (developed through audience research) 
will also help to refine and improve any campaign effort--but integrate 
the research into the actual intervention.

    Question 5: Should VA hire an outside media consultant to assist in 
the research and implementation of the plan?

    Response: It appeared that the VA could benefit from outside 
expertise since staff reported not having the desired skill set in the 
agency. However, it is important to ensure that the appropriate 
consultant is retained, and it may be necessary to have more than one 
if help is needed with strategic planning, audience research, message 
development and dissemination. While the technical skill sets are 
transferable across the corporate and government settings, often there 
are cultural differences. Having a consultant who has experience 
working with the government sector would also be advisable.

    Please feel free to contact me if you have further questions or 
would like to discuss the above. I am happy to be of service to such an 
important cause as ensuring our veterans receive the benefits and care 
they deserve.

            Sincerely,
                                            Sharyn M. Sutton, Ph.D.

                                  <all>

</pre></body></html>
